App. 1
2019 IL 123123
IN THE
SUPREME COURT
OF
THE STATE OF ILLINOIS
-----------------------------------------------------------------------

(Docket No. 123123)
LMP SERVICES, INC., et al. v.
THE CITY OF CHICAGO, Appellee
(LMP Services, Inc., Appellant).
Opinion ﬁled May 23, 2019.
JUSTICE BURKE delivered the judgment of the
court, with opinion.
Chief Justice Karmeier and Justices Thomas,
Kilbride, Garman, Theis, and Neville concurred in the
judgment and opinion.
OPINION
Plaintiff, LMP Services, Inc. (LMP), ﬁled a complaint against the City of Chicago (City)1 alleging
that sections 7-38-115(f ) and 7-38-115(l) of the Municipal Code of Chicago (Code) (Chicago Municipal Code
1

Greg Burke and Kristin Casper, the owners of the food
truck “Schnitzel King,” originally ﬁled suit against the City along
with LMP, which is owned by Laura Pekarik and operates “Cupcakes for Courage” food trucks. The Schnitzel King food truck
went out of business in 2014. Burke and Casper were then voluntarily dismissed from the case.

App. 2
§ 7-39-115(f ), (l) (amended July 25, 2012)) are constitutionally invalid. Section 7-38-115(f ) prohibits food
trucks from parking within 200 feet of the entrance of
a ground-ﬂoor restaurant (200-foot rule), and section
7-38-115(l) requires food truck owners to permanently
install on their vehicles a global positioning system
(GPS) device that transmits location information to a
GPS service (GPS requirement).
The circuit court of Cook County granted the
City’s motion for summary judgment, upholding the
constitutional validity of the two provisions. The appellate court afﬁrmed that ruling. 2017 IL App (1st)
163390. We granted LMP’s petition for leave to appeal.
Ill. S. Ct. R. 315 (eff. July 1, 2017). For the reasons that
follow, we afﬁrm the judgment of the appellate court.
BACKGROUND
In July 2012, the Chicago City Council passed
Ordinance 2012-4489. Chi. City Clerk J. Proc. 31326
(July 25, 2012), https://chicityclerk.s3.amazonaws.com/
s3fspublic/document_uploads/journals-proceedings/2012/
072512.pdf [https://perma.cc/CHN8-KNZU]. The ordinance amended some provisions and added others to
chapters 4-8 and 7-38 of the Code regarding the regulation of mobile food vehicles (food trucks) within the
City. The ordinance kept in place section 7-38-115(f ), a
proximity restriction known as “the 200-foot rule” that
had been in effect since September 1991. This provision states that “[n]o operator of a mobile food vehicle
shall park or stand such vehicle within 200 feet of any

App. 3
principal customer entrance to a restaurant which is
located on the street level.” Chicago Municipal Code
§ 7-38-115(f ) (amended July 25, 2012). The provision
also deﬁnes “restaurant” as “any public place at a ﬁxed
location kept, used, maintained, advertised and held
out to the public as a place where food and drink is
prepared and served for the public for consumption on
or off the premises pursuant to the required licenses.”
Id. The restriction applies regardless of whether the
food truck is parked on private or public property.
Although Ordinance 2012-4489 did not amend section 7-38-115(f ) itself, the ordinance added or amended
other provisions of the Code that affect section 7-38115(f ). For example, Ordinance 2012-4489 amended
section 7-38-128(d) to increase the minimum ﬁne for
any violation of section 7-38-115 to $ 1000, quadrupling the previous minimum ﬁne amount. See id. § 738-128(d) (“Any person who violates sections 7-38-115
and 7-38-117 of this chapter shall be ﬁned not less than
$ 1,000.00 and not more than $ 2,000.00 for each offense. Each day that the violation occurs shall be considered a separate and distinct offense.”).
The ordinance also added section 7-38-117 to the
Code. This new provision established a “mobile food
vehicle stands program” whereby the City reserved a
number of designated areas on the public way where a
certain number of food trucks are permitted to operate
without being subject to the 200-foot rule. Id. § 7-38117(c).

App. 4
Another new provision that was added to the Code
by the ordinance is section 7-38-115(l). This provision
established a “GPS requirement” that compels food
truck owners to install on their food trucks a permanent GPS device “which sends real-time data to any
service that has a publicly-accessible application programming interface (API).” Id. § 7-38-115(l).
Soon after the passage of Ordinance 2012-4489, a
complaint was ﬁled against the City by LMP, a corporation owned by Laura Pekarik, who began operating
the food truck “Cupcakes for Courage” throughout the
Chicagoland area in 2011. In the complaint, LMP alleged that sections 7-38-115(f ) and 7-38-115(l) of the
Code are constitutionally invalid. Specifically, LMP
alleged the 200-foot rule contained in subsection (f ) violates the equal protection and due process clauses in
article I, section 2, of the Illinois Constitution (Ill.
Const. 1970, art. I, § 2) because it is protectionist and
unreasonably favors brick-and-mortar restaurants
over food trucks. LMP further alleged that the GPS requirement in subsection (l) is unconstitutional because
it constitutes a continuous, unreasonable, warrantless
search of food trucks in violation of article I, section 6,
of the Illinois Constitution (Ill. Const. 1970, art. I, § 6).
The circuit court dismissed LMP’s equal protection claim but allowed the remainder of the claims to
go forward. Following discovery, both parties moved for
summary judgment, and the circuit court granted the
City’s motion. The circuit court held that plaintiff ’s
substantive due process challenge to the 200-foot rule
failed because the rule satisﬁes the rational basis test.

App. 5
The court concluded that the 200-foot rule balances the
needs of both restaurants and food trucks and serves
to protect a legitimate City interest in reducing pedestrian trafﬁc. Therefore, the court held that the 200-foot
rule does not violate due process and is constitutionally valid.
The circuit court also upheld the constitutionality
of the GPS requirement, ﬁnding that it was not a
search because the State did not physically trespass
upon plaintiff ’s property to install the GPS unit on the
food truck. The circuit court also held that, even if the
GPS requirement constituted a search, it was not unreasonable. Citing New York v. Burger, 482 U.S. 691
(1987), the court held that warrantless inspections of
closely regulated businesses, such as food services,
must meet three criteria to be constitutionally valid:
(1) there must be a substantial governmental interest
that informs the regulatory scheme permitting the
warrantless inspection, (2) the warrantless inspection
must be necessary to further the purpose of the regulatory scheme, and (3) the regulatory scheme must
provide a constitutionally adequate substitute for a
warrant. The circuit court held the GPS requirement
satisﬁed the Burger test because the City has a substantial interest in ensuring food safety and must
know the location of food trucks to be able to make inspections. Further, the court held that food trucks have
no expectation of privacy as to their location and,
therefore, there is no reason why the City could not
make compliance with the GPS requirement a condition of plaintiff ’s licensure.

App. 6
The appellate court afﬁrmed the circuit court’s
grant of summary judgment. 2017 IL App (1st) 163390.
Addressing plaintiff ’s substantive due process challenge to the 200-foot rule, the appellate court held that
a food truck owner’s right to conduct its business on
public property, i.e., the streets of Chicago, is not a fundamental right for substantive due process purposes
and, thus, the 200-foot rule need only pass the rational
basis test to be valid. Id. ¶ 26. After thoroughly examining each of plaintiff ’s arguments, the court upheld
the 200-foot rule “as a rational means of promoting the
general welfare of the City of Chicago.” Id. ¶ 32. The
court rejected plaintiff ’s protectionist argument, holding that the City has a legitimate interest in protecting
brick-and-mortar restaurants because they bring critical economic beneﬁts to the City, including the payment of taxes and other fees, that exceed any similar
expenditure by food trucks. Thus, the appellate court
concluded that the 200-foot rule strikes an appropriate
balance between the interests of brick-and-mortar restaurants and their food truck competitors.
As to the GPS requirement, the appellate court
held that it is not a search. The appellate court concluded that, because food trucks do not have a constitutional right to conduct business on the streets and
sidewalks of Chicago, the City may require food trucks
to install a GPS device as a condition of licensure.
LMP petitioned for leave to appeal in this court,
which we granted. We also allowed the Illinois Policy
Institute, Restore the Fourth, Inc., the Paciﬁc Legal
Foundation, and the Illinois Food Truck Owners

App. 7
Association, together with the National Food Truck
Association and CATO Institute, to ﬁle amicus curiae
briefs in support of plaintiff. Ill. S. Ct. R. 345 (eff. Sept.
20, 2010). In addition, we allowed the Illinois Restaurant Association to ﬁle an amicus curiae brief in support of the City. Id.
ANALYSIS
Plaintiff asks that we reverse the appellate court’s
afﬁrmance of the circuit court’s grant of summary
judgment to the City and ﬁnd, instead, that sections 738-115(f ) and 7-38-115(l) of the Code are constitutionally invalid. Whether a municipal code provision or ordinance violates the constitution is a question of law
that we review de novo, applying the same rules of construction as would govern the construction of statutes.
Napleton v. Village of Hinsdale, 229 Ill. 2d 296, 306
(2008). Like statutes, municipal code provisions are
presumed constitutional, and the burden of rebutting
that presumption rests with the challenging party, who
must demonstrate a clear constitutional violation. Id.
A reviewing court must afﬁrm the constitutionality of
a statute or ordinance if it is “reasonably capable of
such a determination” and resolve any doubt as to the
statute’s construction in favor of its validity. People v.
One 1998 GMC, 2011 IL 110236, ¶ 20.
The 200-Foot Rule
Plaintiff argues that section 7-38-115(f ) is unconstitutional because it violates its substantive due

App. 8
process rights guaranteed by article I, section 2, of the
Illinois Constitution. Ill. Const. 1970, art. I, § 2. Substantive due process bars arbitrary governmental action that infringes upon a protected interest. People v.
Pepitone, 2018 IL 122034, ¶ 13. The nature of the protected interest determines the level of scrutiny. Where,
as here, the challenged provision does not affect a fundamental right, the rational basis test applies. Id. ¶ 14.
When applying the rational basis test, our inquiry is
twofold: we must determine whether there is a legitimate governmental interest behind the legislation
and, if so, whether there is a reasonable relationship
between that interest and the means the governing
body has chosen to pursue it. See People v. Reed, 148
Ill. 2d 1, 11 (1992). The party challenging a legislative
enactment as failing rational basis review bears the
burden of proving by clear and afﬁrmative evidence
that the enactment constitutes arbitrary, capricious,
and unreasonable legislative action; that there is no
permissible interpretation that justiﬁes its adoption;
or that it does not promote the safety and general
welfare of the public. Triple A Services, Inc. v. Rice, 131
Ill. 2d 217, 226 (1989). Further, when determining
whether a legislative enactment survives rational basis review, courts do not consider the wisdom of the enactment or whether it is the best means of achieving
its goal. Village of Lake Villa v. Stokovich, 211 Ill. 2d
106, 125 (2004); People ex rel. Lumpkin v. Cassidy, 184
Ill. 2d 117, 124 (1998); Arangold Corp. v. Zehnder, 204
Ill. 2d 142, 147 (2003) (“The judgments made by the
legislature in crafting a statute are not subject to
courtroom fact-ﬁnding and may be based on rational

App. 9
speculation unsupported by evidence or empirical
data.”). With these standards in mind, we now consider
the constitutional validity of the 200-foot rule in section 7-38-115(f ) of the Code.
Both brick-and-mortar restaurants and food
trucks are important businesses that bring signiﬁcant
beneﬁts to the City. However, they do so in very different ways. Brick-and-mortar restaurants bring stability
to the neighborhoods in which they are located. The
restaurants pay property taxes and have a vested interest in seeing that their neighborhoods continue to
grow and thrive so that their own businesses will
flourish. Moreover, in certain areas of the City, such as
Greektown, restaurants are a vibrant part of the community and bring a long-term sense of cohesiveness
and identity to the area. In this way, brick-and-mortar
restaurants can help establish certain parts of the City
as tourist destinations in and of themselves, thereby
increasing revenue for the City and improving stable
economic growth.
In contrast, while food trucks bring a life and energy to the City that is all their own, they simply do
not have the same long-term, stabilizing effect on City
neighborhoods as brick-and-mortar restaurants do. Indeed, the business model of food trucks and a good deal
of their appeal are built on mobility, not stability: The
trucks may be in the City one day and in Evanston or
Aurora the next.
The City has a legitimate governmental interest
in encouraging the long-term stability and economic

App. 10
growth of its neighborhoods. The 200-foot rule, which
helps promote brick-and-mortar restaurants and, thus,
neighborhood stability, is rationally related to this legitimate interest. Importantly, too, in 2012, when the
City passed Ordinance 2012-4489, section 7-38-117
was added to the Code. This section created a number
of food truck stands, i.e., designated areas along the
public way where food trucks are permitted to park
without being subject to the 200-foot rule. Thus, the
City has not entirely banned food trucks. Rather, it has
created a regulatory scheme that attempts to balance
the interests of food trucks with the need to promote
neighborhood stability that is furthered by brick-andmortar restaurants.
Plaintiff contends, however, that the 200-foot rule
unreasonably and arbitrarily infringes on its constitutionally protected interest to pursue a trade, occupation, or profession. Citing remarks made by Mayor
Rahm Emanuel and several aldermen when Ordinance 2012-4489 was introduced, plaintiff claims that
the sole purpose for the proximity restriction is impermissible protectionism, because it does not allow food
trucks to trade freely within the marketplace and, instead, shields brick-and-mortar restaurants from competition. Plaintiff maintains that protecting brick-andmortar restaurants from food truck competition is not
a legitimate interest. In support of this contention,
plaintiff relies principally on Chicago Title & Trust Co.
v. Village of Lombard, 19 Ill. 2d 98, 100 (1960).
In Chicago Title & Trust, the plaintiffs sought a
permit from the Village of Lombard to construct a new

App. 11
gas station on land that had been purchased. Although
the property was zoned for this use, the Village denied
the permit based on a municipal ordinance providing
that “ ‘no ﬁlling station may be erected on a lot within
650 feet of any lot upon which a ﬁlling station, licensed
under the provisions of this ordinance, is in operation.’ ” Id. The plaintiff alleged that the proximity restriction in the ordinance was arbitrary and
unreasonable. The Village, however, claimed that the
proximity restriction promoted the public’s health and
safety by limiting the number of gas stations within a
650-foot radius. Id. at 101. The court invalidated the
ordinance, stating that it could not “ﬁnd on this record
a rational basis for the restriction, and we agree with
the court below that it is arbitrary and unreasonable.”
Id. at 107.
Plaintiff ’s reliance on Chicago Title & Trust is
misplaced. The case is distinguishable from the present case for several reasons. First, the ordinance in
Chicago Title & Trust unduly infringed upon a protected property interest by preventing a property
owner from constructing a gas station on his land even
though the property was zoned to permit that use. In
the case before us, however, plaintiff, like all food
trucks, does not own the land on which it operates.
Rather, it conducts its business on City streets along
the public way. In Triple A Services, 131 Ill. 2d at 237,
we rejected the notion that food trucks operating on
the public way are vested with any degree of property
interest and, therefore, held that food trucks have
“no due process right against the city’s subsequent

App. 12
regulation of those streets in the valid exercise of the
city’s police power.” Thus, while plaintiff has a protected interest in pursuing its business and is licensed
to conduct business on the streets of Chicago, plaintiff
has no constitutionally protected property interest to
conduct business at any particular location within the
City. Further, the ordinance in the present case does
not restrict new restaurants from locating near existing restaurants or prevent land owners from using
their property for a purpose allowed by existing zoning
laws. Instead, the ordinance prevents mobile food
trucks from parking adjacent to brick-and-mortar restaurants.
Chicago Title & Trust also differs from the present
case in another important respect. In Chicago Title &
Trust, the village was unable to show that any legitimate governmental interest was advanced by the proximity restriction. Although the village claimed the
ordinance promoted the health and safety of its residents, the record contained no evidence to indicate
that gas stations located in close proximity to each
other had any adverse effect on health or safety. Chicago Title & Trust, 19 Ill. 2d at 104-05. In fact, the court
noted that several existing gas stations within the village were located within 650 feet of each other with no
ill effect on health or safety and that the ordinance
did not place any restrictions on these gas stations. Id.
at 106-07. Thus, the ordinance did nothing more than
advance an arbitrary preference for one similarly situated business over another. Id. at 107. In contrast, in
this case, there are very real differences between

App. 13
brick-and-mortar restaurants and food trucks and in
the effects they have on City neighborhoods. It is not
irrational or arbitrary for the City to take this reality
into account when crafting a regulatory scheme.
A case more on point to the present one is Triple A
Services, in which this court upheld a Chicago ordinance that prohibited food trucks from conducting
business within a certain section of the City identiﬁed
as the “Medical Center District.” Triple A Services, 131
Ill. 2d at 223. Applying the rational basis test, we held
that the City had the power to regulate the use of its
streets for private gain and, therefore, had the authority to prohibit food trucks from operating in the medical district. Id. at 229. Moreover, we found that the
prohibition was rationally related to the City’s legitimate interest in ensuring that emergency vehicles,
medical personnel, and medical clients had easy access
to the medical facilities; in enhancing the appearance
of the district; and in promoting sanitary conditions
within the area. Id. at 232. Thus, we upheld the ordinance as constitutionally valid. Id. at 236. Similarly, in
the present case, the City has a legitimate interest in
ensuring the long-term viability of its neighborhoods,
an interest that food trucks do not further.
In sum, we ﬁnd that plaintiff has not met its considerable burden of showing that the 200-foot rule is
an arbitrary and unreasonable municipal action and
that no permissible interpretation justiﬁes its adoption. The 200-foot rule is not unreasonable because it
is a part of a regulatory scheme that seeks to balance
the interests of food trucks with the City’s need to

App. 14
advance the stability and long-term economic growth
of its neighborhoods. Having found that the 200-foot
rule is rationally related to a legitimate governmental
interest, we need not consider the City’s alternative
rationales for upholding the constitutionality of the
200-foot rule.
The GPS Requirement
Plaintiff maintains, as it did in the courts below,
that section 7-38-115(l) of the Code (Chicago Municipal
Code § 7-38-115(l) (amended July 25, 2012)) is constitutionally invalid. This provision, which was added
to the Code by Ordinance 2012-4489, requires food
trucks to be equipped with a permanently installed
functioning GPS device “which sends real-time data
to any service that has a publicly-accessible application programming interface (API).” Id. The GPS device,
therefore, transmits the food truck’s location to the service provider and, according to the City of Chicago
Rules for Mobile Food Vendors and Shared Kitchens
(Rules),2 must do so whenever the food truck is serving
the public or being serviced at a commissary. Also, the
Rules state that the service provider must maintain
“at least six (6) months of historical location information.” Chi. Dep’t Pub. Health, City of Chicago Rules:
Mobile Food Vendors and Shared Kitchens 13 (updated
Jan. 1, 2019), https://www.chicago.gov/content/dam/city/
depts/dol/rulesandregs/Mobile%20Food%20Vendor%20
2

The City supplemented the record with a copy of the updated City of Chicago Rules concerning Mobile Food Vendors and
Shared Kitchens that issued on January 1, 2019.

App. 15
and%20Shared%20Kitchen%20Rules%20Final_01.01.18.pdf
[https://perma.cc/Y7H6-8S8P] (Rule 8(C)).
Although section 7-38-115(l) and the Rules require
the service provider to have a “publicly-accessible” API,
there is no requirement that the location data be made
available to the public. The Rules speciﬁcally state
that, if the food truck so chooses, their service provider
may deny public access to the food truck’s location
data. In addition, in accord with Rule 8(B), the City will
not request location information from a GPS service
provider unless:
“(1) The information is sought to investigate a complaint of unsanitary or unsafe
conditions, practices, or food or other products
at the vehicle;
(2) The information is sought to investigate a food-related threat to public health;
(3) The information is sought in connection with establishing compliance with Chapter 7-38 of the Municipal Code of Chicago or
the regulations promulgated thereunder;
(4) The information is sought for purposes of emergency preparation or response;
(5) The City has obtained a warrant or
other court authorization to obtain the information; or
(6) The City has received permission
from the licensee to obtain the information.”
Id. (Rule 8(B)).

App. 16
Plaintiff contends that the requirement that it install a GPS unit in its food truck and transmit its location to a service provider constitutes a warrantless
search in violation of the Illinois Constitution. Our
state constitution, like our federal constitution, prohibits only those searches that are unreasonable. Article
I, section 6, of the Illinois Constitution provides, in
part: “The people shall have the right to be secure in
their persons, houses, papers and other possessions
against unreasonable searches, seizures, invasions of
privacy or interceptions of communications by eavesdropping devices or other means.” Ill. Const. 1970, art.
I, § 6. Under the limited lockstep doctrine, we interpret
the search and seizure clause in our state constitution
using the same standards as are used in construing its
federal counterpart, unless a narrow exception applies.
People v. Fitzpatrick, 2013 IL 113449, ¶ 28.
It is plaintiff ’s contention that because the City
requires food trucks to install a GPS device on their
vehicles as a condition of their licensure, there is no
voluntary consent to this physical intrusion on their
private property and, therefore, the GPS requirement
is a search pursuant to the property-based framework
in United States v. Jones, 565 U.S. 400 (2012). See also
El-Nahal v. Yassky, 835 F.3d 248, 259 (2d Cir. 2016)
(Pooler, J., concurring in part and dissenting in part).
Plaintiff also asserts that the GPS requirement is a
search pursuant to Katz v. United States, 389 U.S. 347
(1967), because it intrudes on plaintiff ’s reasonable expectation of privacy. Plaintiff contends that the search
effected by the GPS requirement is unreasonable and,

App. 17
therefore, violates article I, section 6, of the Illinois
Constitution.
The cases plaintiff cites in support of its claim that
the GPS requirement effects a search are distinguishable from the case at bar. Both Jones and Katz were
criminal cases. In Jones, the government, without a
warrant and unknown to the defendant, placed a GPS
device on the defendant’s private car to track his
whereabouts over a period of several weeks. Jones, 565
U.S. at 402-03. The Court held that the GPS device was
an intrusion on the defendant’s private property and
the long-term monitoring it permitted constituted a
search within the meaning of the fourth amendment.
Id. at 404. In Katz, the government, without a warrant,
attached an electronic monitoring device to a public
phone booth that the government believed the defendant was using for his drug trade. Katz, 389 U.S. at 348.
The government then listened in on the defendant’s
conversations, and the information obtained was used
against defendant at trial. Id. On appeal, the United
States Supreme Court found that the monitoring device was a search even though the phone booth was not
the defendant’s private property. Id. at 353. The Court
ruled it a search because the defendant had a reasonable expectation of privacy in his phone conversations.
Id.
The situation here is very different. The City requires food truck owners to install GPS devices on
their vehicles as a condition of their license to operate
on the streets of Chicago. The GPS device does not
transmit the food truck’s location data directly to the

App. 18
City, nor does plaintiff allege that the City has ever obtained plaintiff ’s location data from its service provider without obtaining a warrant. In fact, plaintiff
admits that, at present, the City has never requested
location data from any food truck’s service provider. In
addition, plaintiff also admits that food trucks generally post their location on social media to attract customers. Thus, any expectation of privacy a food truck
might have in their location is greatly diminished, if it
exists at all.
Plaintiff contends that, because a food truck’s service provider must maintain location records for six
months, this long-term monitoring provides greater information about the food truck than its mere location
and, because this information is accessible by the general public, the GPS requirement is “overbroad” and invalid. However, as we already explained above, the
City has never requested location data from plaintiff ’s
service provider. Plaintiff is simply incorrect when it
contends that the GPS requirement mandates that location data be provided to the general public.
We are unable to ﬁnd from the record or the cases
cited by plaintiff that the GPS requirement effects a
search of plaintiff ’s food truck within the meaning of
article I, section 6, of the Illinois Constitution. Nevertheless, even if we were to assume, arguendo, that the
GPS requirement constitutes a search, we would ﬁnd
it to be reasonable.
Food trucks operate within the food industry,
which is traditionally closely regulated. Accordingly,

App. 19
“the warrant and probable-cause requirements, which
fulﬁll the traditional Fourth Amendment standard of
reasonableness for a government search [citation]
have lessened application in this context.” Burger,
482 U.S. at 702-03. The Burger Court held that warrantless inspections of highly regulated businesses
will be deemed reasonable only if (1) there is a substantial government interest that informs the regulatory scheme under which the search is made, (2) the
warrantless inspection is necessary to further the regulatory scheme, and (3) the regulatory scheme is a
constitutionally adequate substitute for a warrant. Id.
Plaintiff agrees that the Burger standard for determining reasonableness is applicable in this case but argues
that the test is not met. We disagree.
Plaintiff does not dispute that the City has a substantial interest in knowing a food truck’s location and
in having access to records regarding a food truck’s
movements and locations over a period of time. Knowing the location where a business is being operated is
a basic necessity. The City needs to regularly inspect
food service businesses for compliance with health
and food safety regulations. This is easily accomplished at brick-and-mortar restaurants because they
are licensed to operate at a speciﬁc location and are
stationary. Food trucks, however, are mobile and move
about the City. The GPS requirement provides the City
with a means of obtaining a food truck’s location to effectuate inspections. Also, the City has a legitimate interest in having a reliable means of locating a food
truck in the event of a public health emergency.

App. 20
Although plaintiff agrees that the Burger test’s
ﬁrst criterion—substantial interest—is met, plaintiff
contends that the GPS requirement does not meet the
second Burger criterion because it is not “necessary” to
further the regulatory scheme. According to plaintiff,
since the location data has never been sought by the
City and because the City could use less intrusive
means to obtain a food truck’s location, the GPS requirement is not necessary. However, as the City explained, relying on other means of obtaining a food
truck’s location, such as social media or simply phoning the food truck, has proven unreliable. Information
on social media is often outdated or inaccurate, and
food trucks, when busy, often fail to answer phone calls.
Thus, the GPS system is the best and most accurate
means of reliably locating a food truck, which is particularly important and necessary in the event of a serious health issue.
Finally, plaintiff argues that the third Burger criterion is not met because the regulatory scheme is not
a constitutionally adequate substitute for a warrant.
Plaintiff bases this claim on the assertion that the regulatory scheme requiring food trucks to be equipped
with a GPS device is excessive because it requires the
location information to be provided to the general public. However, as we explained earlier, plaintiff is simply
incorrect. The GPS requirement does not require food
trucks to make the location data transmitted to their
service provider accessible to the public.

App. 21
Because we ﬁnd that the GPS requirement passes
the Burger test, we ﬁnd that it is not an unreasonable
search and, therefore, passes constitutional muster.
CONCLUSION
Plaintiff has failed to establish that sections 7-38115(f ) and 7-38-115(l) of the Municipal Code of Chicago are unconstitutional. Accordingly, we afﬁrm the
judgment of the appellate court, which afﬁrmed the circuit court’s order granting summary judgment to the
City of Chicago.
Afﬁrmed.

App. 22
2017 IL App (1st) 163390
FIRST DIVISION
December 18, 2017
)
)
LMP SERVICES, INC.,
)
Plaintiff-Appellant, )
)
v.
THE CITY OF CHICAGO, )
)
Defendant-Appellee. )
No. 1-16-3390

Appeal from the
Circuit Court of
Cook County.
No. 12 CH 41235
Honorable
Helen A. Demacopoulos,
Judge Presiding.

JUSTICE HARRIS delivered the judgment of the
court, with opinion.
Presiding Justice Pierce and Justice Mikva concurred in the judgment and opinion.
OPINION
Plaintiff-appellant, LMP Services, Inc. (LMP),
ﬁled this lawsuit seeking both declaratory and injunctive relief against two sections of an ordinance passed
by defendant-appellee, City of Chicago (City). The two
challenged ordinances pertained to the operation of
mobile food vehicles (hereinafter food trucks) within

App. 23
Chicago. Under the ﬁrst challenged ordinance, food
trucks may not, with limited exceptions, locate themselves within 200 feet of the principal customer entrance of a restaurant located at street level. LMP
challenged this ordinance under the due process and
equal protection clauses of the Illinois Constitution.
Under the second challenged provision, food trucks
must be equipped with a Global Positioning System
(GPS) that sends real-time data to any service that has
a publicly accessible application programming interface. LMP challenged this provision as a violation of its
right under the Illinois Constitution to be free from unreasonable searches.
After LMP ﬁled an amended complaint, the City
moved to dismiss all of LMP’s claims. The circuit court
granted the motion with respect to the equal protection
claim but denied the motion as to the due process and
search claims. The City answered the remaining
claims and the parties proceeded to discovery. At the
close of discovery, the parties moved for cross-summary
judgment. As to the 200-foot rule, the circuit court
found it rationally related to (1) the City’s need to balance the interests of both the food trucks and brickand-mortar restaurants and (2) the City’s need to
balance sidewalk congestion. As to the GPS requirement, the circuit court found LMP lacked standing
because the City had never requested its GPS information and, therefore, a search had not occurred. The
court further concluded that, even if a search had occurred, the search was reasonable and therefore constitutional.

App. 24
LMP now appeals the circuit court’s grant of summary judgment in favor of the City. Upon this court’s
review, we agree with the circuit court’s ﬁndings that
LMP’s constitutional challenge to both sections of the
ordinance fails. The City has a critical interest in maintaining a thriving food service industry of which brickand-mortar establishments are an essential part. The
200-foot exclusion represents a rational means of ensuring the general welfare of the City and is neither
arbitrary nor unreasonable. The GPS is not a search
pursuant to United States v. Jones, 565 U.S. 400 (2012).
The GPS rule represents a method of requiring a licensee to maintain records as to its operational location in
an electronic form as a condition of conducting business from the city street. Accordingly, the circuit
court’s grant of summary judgment in favor of the City
is afﬁrmed.
JURISDICTION
On June 13, 2013, the circuit court granted the
City’s motion to dismiss LMP’s equal protection claim.
On December 5, 2016, the circuit court granted the
City’s motion for summary judgment on LMP’s due
process and illegal search claims. LMP’s cross-motion
for summary judgment was denied the same day. On
December 28, 2016, LMP timely ﬁled its notice of appeal as to the December 5, 2016 order.1 Accordingly,
1

LMP does not challenge the order of June 13, 2013, and has
therefore forfeited review of its equal protection claim. Lewanski
v. Lewanski, 59 Ill. App. 3d 805, 815-16 (1978).

App. 25
this court has jurisdiction over this matter pursuant to
article VI, section 6, of the Illinois Constitution and Illinois Supreme Court Rules 301 and 303. Ill. Const.
1970, art. VI, § 6; Ill. S. Ct. R. 301 (eff. Feb. 1, 1994);
R. 303 (eff. May 30, 2008).
BACKGROUND
The plaintiff-appellant, LMP is a closely held Illinois corporation in Elmhurst, Illinois. Its owner, Laura
Pekarik, operates the food truck called Cupcakes for
Courage. Cupcakes for Courage is licensed in Chicago
as a “mobile food dispenser,” and since June 2011,
Pekarik has sold cupcakes from the food truck.
On July 25, 2012, the Chicago city council passed
an ordinance to expand food truck operations within
the city limits of Chicago. The ordinance allows for food
preparation on food trucks and established a number
of regulations governing location, operation, and inspection of food trucks. The ordinance authorizes the
commissioner of transportation for the City to establish ﬁxed stands where parking space for food trucks
is reserved. Chicago Municipal Code § 7-38-117(c)
(added July 25, 2012). The ordinance requires a “minimum of 5 such stands” in each “community area * * *
designated in section 1-14-010 of this Code [(Chicago
Municipal Code § 1-14-010 (added Dec. 15, 1993))],
that has 300 or more retail food establishments.” Id.

App. 26
Those community areas are the Loop,2 Near West,
Near North, Lincoln Park, Lakeview, and West Town.
Beyond food stands, food trucks may park in legal
parking spots on the street for up to two hours. Chicago
Municipal Code § 7-38-115(b) (amended July 25, 2012).
Food trucks may not park within 20 feet of a crosswalk,
30 feet of a stop light or stop sign, or adjacent to a bike
lane. Chicago Municipal Code § 7-38-115(e) (amended
July 25, 2012). In addition, the ordinance provides:
“No operator of a mobile food vehicle shall
park or stand such vehicle within 200 feet of
any principal customer entrance to a restaurant which is located on the street level;
provided, however, the restriction in this subsection shall not apply between 12 a.m. and 2
a.m.” Chicago Municipal Code § 7-38-115(f )
(amended July 25, 2012).
“Restaurant” is deﬁned as:
“[A]ny public place at a ﬁxed location kept,
used, maintained, advertised and held out to
the public as a place where food and drink is
prepared and served for the public for consumption on or off the premises pursuant to
the required licenses. Such establishments include, but are not limited to, restaurants, coffee shops, cafeterias, dining rooms, eating
houses, short order cafes, luncheonettes,
grills, tearooms, and sandwich shops.” Id.
2

The Loop is geographically deﬁned as the downtown area
of Chicago boarded [sic] by Lake Michigan to the east, the Chicago
River to the north and west, and Congress Parkway to the south.

App. 27
There are two exceptions to the 200-foot requirement.
The ﬁrst exception allows food trucks to park at one of
the ﬁve established food stands even if that stand is
within 200-feet of the primary entrance of a restaurant. The second exception allows food trucks to park
near construction sites and serve those sites.
Mobile food vendors are also subject to regulations
designed to ensure safe food preparation and sanitary
operations, including requirements for storage and
plumbing equipment, food preparation, cleaning products, temperature control, and the presence of certiﬁed
food service manager when food is prepared. Chicago
Municipal Code §§ 7-38-132; 7-38-134 (added July 25,
2012). Each food truck must be linked to a commissary
used daily for supplying, cleaning, and servicing. Chicago Municipal Code § 7-38-138 (added July 25, 2012).
The Chicago board of health (board) is authorized to
enact rules and regulations to implement those requirements (Chicago Municipal Code § 7-38-128
(added July 25, 2012)) and the department of public
health conducts inspections. Chicago Municipal Code
§ 7-38-126 (added July 25, 2012).
The ordinance also has a requirement concerning
the use of GPS equipment on the food trucks. The ordinance provides:
“Each mobile food vehicle shall be equipped
with a permanently installed functioning
Global-Positioning-System (GPS) device which
sends real-time data to any service that has a
publicly-accessible application programming
interface (API). For purposes of enforcing this

App. 28
chapter, a rebuttable presumption shall be
created that a mobile food vehicle is parked at
places and times as shown in the data tracked
from the vehicle’s GPS device.” Chicago Municipal Code § 7-38-115(1) (amended July 25,
2012)
The Board subsequently enacted “Rules and Regulations for Mobile Food Vehicles.” Rule 8 provides
that the GPS device be permanently installed; be an
“ ‘active,’ ” not “ ‘passive,’ ” device that sends real-time
location data to a GPS provider; and be accurate no
less than 95% of the time. Chicago Board of Health,
Rules and Regulations for Mobile Food Vehicles,
R. 8(A)(1)-(3) (eff. Aug. 7, 2014), https://www.cityofchicago.
org/content/dam/city/depts/bacp/general/MFV_Rules_
and_Regulations-8-7-2014.pdf. The City claimed that
the GPS requirement’s purpose was so that it could locate food trucks in order to conduct ﬁeld inspections
and investigate public health complaints.
The rule further provides that the device must
function during business operations and while at a
commissary and transmit GPS coordinates to the GPS
service provider at least once every ﬁve minutes. Chicago Board of Health, Rules and Regulations for Mobile Food Vehicles, R. 8(A)(4)-(5) (eff. Aug. 7, 2014). The
rule further provides that the City will not request
GPS information without consent, a warrant, or court
authorization unless the information is needed “to investigate a complaint of unsanitary or unsafe conditions, practices, or food or other products at the
vehicle”; “to investigate a food-related threat to public

App. 29
health”; to “establish[h] [sic] compliance with” the ordinance and regulations; or for “emergency preparation or response.” Chicago Board of Health, Rules and
Regulations for Mobile Food Vehicles, R. 8(B) (eff. Aug.
7, 2014). Rule 8 also clariﬁed that, while GPS providers
must “be able to provide” an API “that is available to
the general public,” licensees need not “provide the appropriate access information to the API” unless the
City establishes a website to display food truck locations and the licensee chooses to participate. Chicago
Board of Health, Rules and Regulations for Mobile
Food Vehicles, R. 8(C)-(D) (eff. Aug. 7, 2014). The food
truck “is not required to provide such information or
otherwise allow the City to display the vehicle’s location.” Chicago Board of Health, Rules and Regulations
for Mobile Food Vehicles, R. 8(D) (eff. Aug. 7, 2014).
LMP ﬁled this lawsuit on November 14, 2012, and
later amended it on March 8, 2013, challenging both
the 200-foot exclusion rule and GPS requirement. Its
suit alleged that the 200-foot rule violated the due process and equal protection clauses of article I, section 2
of the Illinois Constitution and the GPS tracking
scheme violated the search, seizures, privacy and interceptions clause of article I, section 6 of the Illinois
Constitution. The City moved to dismiss the complaint
in its entirety, and after brieﬁng, the circuit court
granted the City’s motion with respect to LMP’s equal
protection claim but denied it as to the due process and
search claims. The City then answered the amended
complaint and the parties proceeded to discovery. The
City set forth three reasons for imposing the 200-foot

App. 30
restriction: (1) balance the interests of brick-andmortar restaurants with the food trucks, (2) encourage
food trucks to locate in underserved areas, and (3)
manage sidewalk congestion.
The parties engaged in an extensive discovery
phase regarding the City’s justiﬁcation for the 200-foot
rule and the GPS requirement. The City testiﬁed that
the 200-foot rule applied “as the crow ﬂies,” radiating
out 200 feet in all directions from a restaurant’s front
door. This means a food truck cannot park on the other
side of the street or a block over if that position is
within 200 feet of a restaurant’s principal entrance.
The rule also applies to a food truck parked on private
property. Pekarik’s [sic] testiﬁed that the 200-foot rule
excluded her from many areas she would like to conduct business from in the Loop. As to the construction
site exception, the City testiﬁed that trucks need only
operate within proximity of the construction site,
though it could not give a precise deﬁnition of “proximity.”
Plaintiff hired expert witness, Renia Ehrenfeucht,
a professor of urban planning and sidewalk usage, to
conduct an observational study of seven different food
truck locations across the northern portion of the Loop.
Based on what her team observed, she reached two
conclusions: (1) there was no observed difference in pedestrian congestion impacts based on the distance between a food truck’s operations and a restaurant’s
front door and (2) there was no difference in the degree
of pedestrian congestion at mobile food truck stand locations versus other public-private locations.

App. 31
The City explained the need for the UPS [sic] requirement because it may be necessary to track a food
truck’s location to conduct a health or administrative
investigation. The City admitted that it had never requested GPS data from any licensed food truck. In the
few instances the City needed to ﬁnd a truck, the ﬁeld
inspectors utilized social media to determine a food
truck’s location. Since the GPS requirement only applies while the food truck is in operation, the City admitted the GPS unit may need to be physically turned
on by the truck operator.
At the close of discovery, the parties ﬁled cross-motions for summary judgment. The circuit court ruled
that rational-basis review applied to LMP’s due process challenge to the 200-foot rule. Under this review,
the circuit court upheld the 200-foot rule based on the
City’s argument that the rule balances the interests of
brick-and-mortar restaurants and food trucks. The circuit court found the rule rationally related to the City’s
interest in managing sidewalk congestion. It rejected
the argument that the rule helped spread food truck
business to underserved sections of the city. As to the
GPS requirement, the court determined LMP lacked
standing to even challenge the provision because LMP
failed to show its data had ever been requested by
the City. The circuit court further explained that even
if a search had taken place, the search was reasonable
because the City’s interest in food safety, the GPS data
is necessary to ﬁnd food trucks for purposes of inspection or notiﬁcations, and the rules limit the type of

App. 32
information and the circumstances under which the
City will obtain it.
LMP timely appealed the circuit court’s grant of
summary judgment and this appeal now follows.
ANALYSIS
On appeal, LMP raises two issues: (1) the circuit
court erred in concluding that the 200-foot rule does
not violate its substantive due process rights, and (2)
the circuit court erred in concluding the GPS requirement is not a search.
LMP’s appeal arises from an order granting summary judgment in favor of the City upholding the validity of the 200-foot rule and the GPS requirement,
our review is therefore de novo. Progressive Universal
Insurance Co. of Illinois v. Liberty Mutual Fire Insurance Co., 215 Ill. 2d 121, 128 (2005). De novo review
is also the appropriate standard when the appellate
court reviews the constitutionality of a statute.
Kanerva v. Weems, 2014 IL 115811, ¶ 33.
LMP alleges the 200-foot restriction violates its
due process right under article I, section 2 of the Illinois Constitution, which protects the right of Illinoisans to pursue a legitimate occupation. In claiming a
violation of its due process rights, LMP states in its
amended complaint, “[t]his lawsuit seeks to vindicate
the fundamental rights of the Plaintiffs, who own and
operate mobile-vending vehicles, to earn an honest

App. 33
living free from unreasonable and anticompetitive government restrictions.”
The fourteenth amendment to the United States
Constitution and article I, section 2, of the Illinois Constitution protect individuals from the deprivation of
life, liberty, or property without due process of law. U.S.
Const., amend. XIV; Ill. Const. 1970, art. I, § 2. Case
law pertaining to due process recognizes two distinct
due process analyses: substantive due process and procedural due process. Doe v. City of Lafayette, 377 F.3d
757, 767-68 (7th Cir. 2004); In re JR., 341 Ill. App. 3d
784, 791 (2003). “Whereas procedural due process governs the procedures employed to deny a person’s life,
liberty or property interest, substantive due process
limits the state’s ability to act, irrespective of the procedural protections provided.” In re Marriage of Miller,
227 Ill. 2d 185, 197 (2007) (citing Collins v. City of
Harker Heights, 503 U.S. 115, 125 (1992)). In the case
before us, LMP raises no argument concerning the denial of notice or procedure; accordingly, we review
LMP’s claim only as it relates to substantive due process.
When a party claims a due process violation, a
court “must ﬁrst ascertain that a protected interest
has been interfered with by the state. Then and only
then does one consider what process is due.” Big Sky
Excavating, Inc. v. Illinois Bell Telephone Co., 217 Ill.
2d 221, 241 (2005); In re J.W., 204 III. 2d 50, 66 (2003).
This is a critical step because the “nature of the right
dictates the level of scrutiny a court must employ in
determining whether the statute in question comports

App. 34
with the constitution.” Napleton v. Village of Hinsdale,
229 Ill. 2d 296, 307 (2008).
LIMP frames the 200-foot rule as a means to suppress its economic rights in violation of article I, section 2, of the Illinois Constitution. The ordinance states
in relevant part, “[n]o operator of a mobile food vehicle
shall park or stand such vehicle within 200 feet of any
principal customer entrance * * * which is located on
the street level.” Chicago Municipal Code § 7-38-115(f )
(amended July 25, 2012). In arguing that its due process right has been violated, LMP cites the accepted
general principle that “every citizen has the right to
pursue a trade, occupation, business or profession” and
this right “constitutes both a property and liberty interest entitled to the protection of the law as guaranteed by the due process clauses of the Illinois and
Federal constitutions.” Caldwell Banker Residential
Real Estate Services of Illinois, Inc. v. Clayton, 105 Ill.
2d 389, 397 (1985).
The right to pursue a profession is not a fundamental right for substantive due process purposes, and
the legislature’s, or in this case the Chicago City council’s, infringement on this right need only be examined
using the rational basis test. Potts v. Illinois Department of Registration & Education, 128 Ill. 2d 322, 329
(1989). The state, in the proper exercise of its general
police powers, may regulate this “economic right,”
where the public health, safety, or general welfare so
requires. Id. at 330 (citing Pozner v. Mauck, 73 Ill. 2d
250 (1978)).

App. 35
The fact that the challenged provisions are part of
an ordinance enacted by the City and not statutes enacted by the Illinois General Assembly is immaterial.
Under the Illinois Constitution of 1970, the City is a
home rule unit of local government. Ill. Const. 1970,
art. VII, § 6. This provision of our constitution directly
allows the City to “regulate for the protection of the
public health, safety, morals and welfare.” Ill. Const.
1970, art. VII, § 6(a). Local governments granted home
rule act with the same powers as the state unless speciﬁcally limited by the General Assembly. City of Urbana v. Houser, 67 III. 2d 268, 273 (1977).
While acknowledging the rational basis standard,
LMP argues that under Illinois law, the rational basis
test requires a “deﬁnite and reasonable relationship to
the end of protecting the public health, safety and welfare.” Church v. State, 164 Ill. 2d 153, 165 (1995); Krol
v. County of Will, 38 Ill. 2d 587, 590 (1968) (requiring a
deﬁnite and substantial relation to a recognized policepower purpose). LMP fails to recognize that this argument concerning a “heightened” rational basis test was
rejected by the Illinois Supreme Court in Napkton, 229
Ill. 2d 296. In that case, the plaintiff “used the term
‘substantial relationship’ or ‘real and substantial’ to
describe the applicable level of judicial scrutiny” our
supreme court should apply in reviewing her facial
challenge to Hinsdale’s zoning law. Id. at 309. In rejecting plaintiff ’s argument, the court stated,
“We clarify that the ‘substantial relation’ language used in cases addressing the validity
of zoning regulations has been simply an

App. 36
alternate statement of the rational basis test
which was tailored to address the speciﬁc interests advanced by the enactment of zoning
ordinances, namely, the promotion of the public health, safety, morals, or general welfare.”
Id. at 315.
In accordance with Napleton, we reject LMP’s argument that in order to survive rational basis scrutiny,
the challenged ordinance must have “a deﬁnite and
substantial” relationship to a recognized police power.
As stated by our supreme court in Napleton, a challenged zoning ordinance will survive rational basis
scrutiny “if it bears a rational relationship to a legitimate legislative purpose and is neither arbitrary nor
unreasonable.” Id. at 319 (citing Village of Lake Villa v.
Stokovich, 211 Ill. 2d 106 (2004)).
When Illinois courts apply the rational basis test,
“a court must identify the public interest that the statute is intended to protect, examine whether the statute
bears a reasonable relationship to that interest, and
determine whether the method used to protect or further that interest is reasonable.” Arangold Corp. v.
Zehnder, 204 Ill. 2d 142, 147 (2003). A court’s review
under this standard is “limited” and “ ‘highly deferential.’ ” Id. Furthermore, under this test “mathematical
precision” is not required and “a legislative choice is
not subject to courtroom fact-ﬁnding and may be based
on rational speculation unsupported by the evidence or
empirical data.” (Internal quotation marks omitted.)
Cutinello v. Whitley, 161 Ill. 2d 409, 421-22 (1994).
Whether a statute is wise or the best way of achieving

App. 37
a stated end is left to the determination of the legislature. Arangold Corp., 204 Ill. 2d at 147.
Like statues, ordinances are presumed constitutional, and the opposing party bears the burden of rebutting this presumption. American Federation of
State, County, & Municipal Employees (AFSCME),
Council 31 v. State, 2015 IL App (1st) 133454, ¶ 19.
This court must, whenever possible, construe a statue
to uphold its constitutionality. Id. A party raising a
challenge that an ordinance is facially unconstitutional bears the burden of establishing a clear constitutional violation. Jackson v. City of Chicago, 2012 IL
App (1st) 111044, ¶ 20. Any doubts are resolved in favor of the challenged regulations. Granite City Division of National Steel Co. v. Illinois Pollution Control
Board, 155 Ill. 2d 149, 164-65 (1993). Under these
guidelines, a facial challenge represents “the most difﬁcult challenge to mount successfully because an enactment is invalid on its face only if no set of
circumstances exists under which it would be valid.”
People v. One 1998 GMC, 2011 IL 110236, ¶ 20. “The
fact that the enactment could be found unconstitutional under some set of circumstances does not establish its facial invalidity.” Napleton, 229 111. 2d at 306.
When LMP challenged the 200-foot rule, the City
responded with three government objectives the rule
is meant to further (1) strike a balance between brickand-mortar restaurants and food trucks, (2) spread
retail food options to underserved areas of the City,
and (3) control sidewalk congestion in the applicable
areas. If any one of these justiﬁcations is found to be

App. 38
sufﬁcient, the ordinance will be upheld as constitutional. In arguing for reversal before this court, LMP
asserts the 200-foot rule is unconstitutional because it
is blatant protectionism and protecting brick-andmortar restaurants from food truck competition is not
a legitimate government interest.
We reject LMP’s assertion that the City may not
protect brick-and-mortar restaurants and uphold the
200-foot rule as a rational means of promoting the general welfare of the City of Chicago. Both the City and
its expert testiﬁed that brick-and-mortar restaurants
bring critical economic beneﬁts to communities, including the payment of property taxes. Unlike brick-andmortar restaurants, LMP and all food trucks do not
pay property taxes or other assorted fees to the City
that would be associated with the operation of a brickand-mortar restaurant occupying real property in the
City. Property taxes represent a key source of revenue
for the City. The 200-foot rule seeks to protect those in
the food service industry who pay and support the
City’s property tax. base from those food businesses
that do not. Moreover, brick-and-mortar restaurants
also pay utility taxes, lease taxes, and, yes, even restaurant taxes. Chicago Municipal Code §§ 3-30-030
(added Nov. 19, 2003) (restaurant tax); 3-32-030
(amended Oct. 28, 2015) (lease tax); 3-53-020 (added
June 10, 1998) (electricity use tax); and 3-80-040
(added Sept. 14, 2016) (water and sewer tax).
Illinois courts have previously found that it is completely rational for an Illinois municipality to favor
businesses generating tax dollars over businesses that

App. 39
do not. In Napleton, a challenged zoning change prohibited “new depository or nondepository credit institutions from being located on the ﬁrst ﬂoor of any
building in the B-1 or B-3 zoning district.” 229 Ill. 2d
at 302. In upholding the validity of the ordinance, our
supreme court stated:
“[i]t was reasonable and legitimate for
Hinsdale to conclude that the continued vitality of its business districts required an appropriate balance between businesses that
provide sales tax revenue and those that do
not, and its passage of the challenged amendments precluding new banks and ﬁnancial institutions from locating on the ground ﬂoors
of buildings in the designated districts because they impose an opportunity cost in forgone tax revenue is rationally related to that
purpose.” Id. at 321.
In the same line of reasoning, it is reasonable and legitimate for the City to conclude that continued receipt
of property taxes and other city fees associated with
running a brick-and-mortar restaurant “required an
appropriate balance” with those food businesses that
do not.
This proposition is not new and has been accepted
as a legitimate and reasonable government action by
previous courts. In City of New Orleans v. Dukes, the
United States Supreme Court acknowledged that the
City of New Orleans may ban pushcart food vendors
from the city’s historic French Quarter. 427 U.S. 297,
303 (1976). In upholding the ban under a rational basis

App. 40
review, the Court recognized the ban as a legitimate
way for the city of New Orleans “to preserve the appearance and custom valued by the Quarter’s residents
and attractive to tourists.” (Internal quotation marks
omitted.) Id. at 304.
In Vaden v. Village of Maywood, the Seventh Circuit, applying Illinois law, upheld as a legitimate and
rational exercise of municipal authority, a Village of
Maywood ordinance, which restricted mobile food
vending near schools. 809 F.2d 361 (7th Cir. 1987). As
the Seventh Circuit pointed out, “distinctions between
street vendors and merchants with a ﬁxed place of
business have been accepted by other courts in upholding similar ordinances against equal protection challenges.”3 Id. at 366. Cases like Dukes, Napleton, and
Vaden establish that courts have long upheld city ordinances favoring one business over another under rational basis review.
As LMP admits, it seeks to overturn the 200-foot
rule because its main affect [sic] is to prevent it from
parking in areas close to a restaurant’s front door
where large amounts of potential customers gather.
Notwithstanding LMP’s license, which granted them
the privilege to conduct business on the City’s streets
and sidewalks, LMP fails to recognize that while one
has a constitutional right to pursue a profession (Rios
v. Jones, 63 Ill. 2d 488, 496-97 (1976)), Illinois courts
3

While the court discusses this in terms of equal protection,
the court had previously noted that whether framed as a due process or equal protection challenge, rational basis review applied.
Vaden, 809 F.2d at 365.

App. 41
have long recognized that no individual or business
has the constitutional right to conduct business from
the city street or sidewalk. City of Chicago v. Rhine,
363 Ill. 619 (1936). The Rhine court dealt with a City
ordinance that completely prohibited a person from
selling newspapers in the Loop or Wilson Avenue districts. Id. at 620. In upholding the complete prohibition
against the sale of newspapers in those areas, the court
stated, “[Rhine] had no property right in. the use of any
of the streets of Chicago for the location and maintenance of his business.” Id. at 625. Tellingly, LMP does
not address Rhine or its progeny in either its opening
or reply brief to this court.
The proposition that no individual has the constitutional property right to conduct business from the
streets or sidewalks located within the state of Illinois
has been reaffirmed several times since Rhine. In
Good Humor Corp. v. Village of Mundelein, 33 III. 2d
252, 253-54 (1965), the Illinois Supreme Court upheld
an ordinance, which prohibited all vending from the
streets or sidewalks in the Village of Mundelein. Relying on Rhine, the court upheld the ordinance and found
no due process violation because, “[t]he assumed property right upon which the plaintiff ’s case against the
validity of the ordinance is based is nonexistent.” Id. at
259 (citing Rhine, 363 Ill. at 625).
In Triple A Services, Inc. v. Rice, 131 Ill. 2d 217,
221-22 (1989), our supreme court was confronted with
a Chicago ordinance that banned mobile food trucks
from selling within the Medical District. After upholding the ordinance under a rational basis review, our

App. 42
supreme court again reiterated that no individual has
the right to use streets or sidewalks for private gain.
Id. at 229. The Triple A Services, Inc., court further recognized that Chicago’s ability to regulate its streets
and sidewalks had become even more evident since the
Rhine decision because of the adoption of the 1970
Constitution and the introduction of “home rule.” Id. at
230 (citing Ill. Const. 1970, art. VII, § 6). Under article
VII, section 6, Chicago had the “same powers as the
sovereign, except where such powers are limited by the
General Assembly.” Id.
In accord with Rhine, Good Humor Corp., and Triple A Services, Inc., we reiterate that no individual or
business has a constitutional property right to use Chicago’s streets and sidewalks for private gain. It is only
through the issuance of a license that plaintiff may
conduct business on the City streets. The issuance of
said license did not create a vested property right but
rather a “revocable privilege to do an act or a series of
acts upon the land of another without possessing any
estate or interest in such land.” Grigoleit, Inc. v. Board
of Trustees of the Sanitary District of Decatur, 233 Ill.
App. 3d 606, 612 (1992) (citing City of Berwyn v. Berglund, 255 Ill. 498, 500 (1912)). As plaintiff acknowledged at oral argument, the City could outright ban all
food trucks from operating on the city streets. The issuance of a license to operate on the city street did not
abrogate the City’s power to legislate for the general
welfare, and “[i]t is presumed, absent unequivocal language, that a city, in granting a license, reserves the
ability to exercise its police power and place additional

App. 43
regulatory burdens on license holders.” (Internal quotation marks omitted.) Triple A Services, Inc., 131 Ill.
2d at 235.
While LMP points out the main thrust of the 200foot rule is to prohibit street parking, it also points to
at least two instances where the 200-foot rule prohibits
it from operating on private property. Yet this fact does
not render the 200-foot restriction unconstitutional.
LMP has raised a facial challenge to the constitutionality of the 200-foot rule, and this court will only sustain a facial challenge “if no set of circumstances exists
under which it would be valid.” Napleton, 229 Ill. 2d at
306. “The fact that the enactment could be found unconstitutional under some set of circumstances does
not establish its facial invalidity.” Id. (citing Village of
Hoffman Estates v. The Flipside, Hoffman Estates, Inc.,
455 U.S. 489, 504 (1982)). Signiﬁcantly, courts are to
give “wide latitude” to the states “in the regulation of
their local economies under their police powers, and rational distinctions may be made with substantially less
than mathematical exactitude.” Dukes, 427 U.S. at 303.
For this reason, LMP’s argument concerning the incidental effect of the 200-foot rule does not support its
facial invalidity.
We also ﬁnd all of the cases relied upon by LMP to
be readily distinguishable from the facts of this case
and do not support a ﬁnding of facial invalidity. In attacking the 200-foot rule, LMP relies primarily on Chicago Title & Trust Co. v. Village of Lombard, 19 III. 2d
98 (1960), a case involving a proximity restriction between existing and new gas stations. In Chicago Title,

App. 44
our supreme court invalidated a Village of Lombard ordinance that prevented the establishment of any new
gas station within 650 feet of any existing gas station.
Id. at 100. While proposed on the basis of safety, the
reviewing court found the fact that new stations could
be built within 150 feet of schools, hospitals, and
churches completely undermined the claim of safety.
Id. at 104. Additionally, the rule had no effect on those
stations within 650 feet already in existence. Id. at
106-07. Therefore, the court found no rational basis for
the safety concerns. Id. at 107. Unlike, Chicago Title,
the restriction at issue in this case was not proffered
solely based on safety and does not favor existing food
trucks over new truck competitors.
Chicago Title is distinguishable for several other
reasons. Chicago Title was decided before the 1970 Illinois Constitution and the implementation of home
rule. As explained in Triple A Services Inc., the home
rule provision dramatically altered Chicago’s authority, and it can now act with the “same powers as the
sovereign.” Triple A Services, Inc., 131 Ill. 2d at 230.
Notably, the court in Triple A Services, Inc., also rejected plaintiff ’s attempt to rely on nonhome rule case
law. Id. at 231 (citing Rocking H. Stables, Inc. v. Village
of Norridge, 106 Ill. App. 2d 179 (1969)). Besides not
addressing home rule, Chicago Title is also distinguishable because the plaintiff in that case sought to
use a piece of real property. 19 Ill. 2d at 106-07 (denies
to plaintiffs the right to use their property as a gas station). Unlike the private real property at issue in Chicago Title, LMP seeks to make use of Chicago’s streets

App. 45
and sidewalks for its own private gain. As previously
stated, LMP has no property right to use the streets
and sidewalks for its own private gain. Rhine, 363 Ill.
at 625.
LMP claims that Chicago Title stands for the proposition that proximity based restrictions that “promote
monopoly” are inherently suspect. See Chicago Title,
19 Ill. 2d at 107 (“[i]t exempts from its requirements
businesses already established, and, in operation and
effect, tends to promote monopoly”). LMP argues that
the 200-foot restriction promotes a monopoly because
it prevents it from “vending in the vast majority of the
Loop” and reduces competition. As previously stated,
LMP and all food trucks have no constitutional property right to conduct any private business from the
streets or sidewalks of Chicago. Rhine, 363 III. at 625.
Moreover, LMP appears to take the position that the
200-foot restriction promotes a monopoly by the brickand-mortar restaurants regardless of who actually
owns them. Black’s Law Dictionary deﬁnes monopoly
as “[c]ontrol or advantage obtained by one supplier or
producer over the commercial market within a given
region.” (Emphasis added.) Black’s Law Dictionary
(10th ed. 2014). LMP presents no evidence, nor does
this court expect it could, that brick-and-mortar restaurants are controlled by one supplier or producer.
LMP’s claim that the rule supports a monopoly has
neither a basis in law or fact and is rejected by this
court.
LMP also argues that Illinois may not discriminate against two different business models and cites

App. 46
Exchange National Bank of Chicago v. Village of
Skokie, 86 Ill. App. 2d 12 (1967). In Exchange National,
plaintiff was denied a special use permit to open an
automated car wash. Id. at 13-14. While the court reversed the denial of the permit as arbitrary and unreasonable, it stated in dicta that the village did not have
the municipal authority to legislate “economic protection for existing businesses against the normal competitive factors which are basic to our economic
system.” Id. at 21.
Exchange National, like Chicago Title, is a pre1970 case and does not deal with home rule authority.
This alone undercuts the weight to be given to it.
Equally as important, the case simply does not support
LMP’s position. In making its argument, LMP willfully
fails to recognize that it is not the same business as a
brick-and-mortar restaurant. Unlike Exchange National, this is not a case where there are two similar
business [sic], one automated and one not, both seeking to permanently operate from private real property.
LMP does not seek to permanently conduct its bakery
business from a brick-and-mortar establishment in
Chicago using automated techniques, and the 200-foot
rule it seeks to invalidate does not prevent it from so
doing. Accordingly, Exchange National does not support LMP’s position.
The other cases relied upon by LMP also involved
the use of private real property and are therefore distinguishable from the case currently before the court.
A case relied upon by LMP, Cosmopolitan National
Bank v. Village of Niles, 118 Ill. App. 3d 87 (1983),

App. 47
involved a piece of real property. See id. at 88-89 (noting the issue before the court was the denial of a special use permit to operate a McDonald’s restaurant). It
is further distinguished by the fact that the plaintiff in
Cosmopolitan National Bank did not seek to invalidate
any Niles ordinance. LMP also relies on Church, but
that case involved licensures and whether the legislature could require practical experience as a prerequisite for issuing a license to become a private alarm
installer. 164 Ill. 2d at 167-68. LMP does not claim it
has been denied a license because it lacks experience
in the food truck business, so its reliance on this case
is misplaced.
Based on the above, LMP has failed to establish
that the 200-foot restriction is arbitrary and unreasonable as having no relation to the City’s authority to
promote its general welfare. Accordingly, the circuit
court’s order granting summary judgment in favor of
the City as to the 200-foot restriction is afﬁrmed.4
LMP next argues the requirement that it install a
GPS unit in its truck and transmit its location to a service provider represents a warrantless search in violation of article I, section 6, of the Illinois Constitution.
Under the challenged municipal provision, each food
truck “shall be equipped with a permanently installed
functioning [GPS] device which sends real-time data to
4

Because we uphold the 200-foot rule as a reasonable exercise of the City’s power to protect businesses paying property tax
over those that do not, we decline to address whether the other
proffered reasons would also support the constitutionality of the
200-foot restriction.

App. 48
any service that has a publicly-accessible application
programming interface.” Chicago Municipal Code § 738-115(1) (amended July 25, 2012). An applicable
board of health rule explains that the GPS device need
only transmit location data “while the vehicle is vending food or otherwise open for business to the public,
and when the vehicle is being serviced at a commissary.” Chicago Board of Health, Rules and Regulations
for Mobile Food Vehicles, R. 8(A)(4) (eff. Aug. 7, 2014).
Section 6, of article I, of the Illinois Constitution
states:
i. “The people shall have the right to be
secure in their persons, houses, papers and
other possessions against unreasonable
searches, seizures, invasions of privacy or interceptions of communications by eavesdropping devices or other means. No warrant shall
issue without probable cause, supported by afﬁdavit particularly describing the place to be
searched and the persons or things to be
seized.” Ill. Const. 1970, art. I, § 6.
We note that “the protection against unreasonable
searches and seizures under the Illinois Constitution
is measured by the same standards as are used in deﬁning the protections contained in the forth [sic]
amendment to the United States Constitution.” People
v. Thomas, 198 Ill. 2d 103, 109 (2001).
LMP contends that the GPS requirement constitutes a “search” pursuant to Jones, 565 U.S. 400. In
the Jones case, the FBI suspected the defendant of
drug trafﬁcking and obtained a warrant authorizing

App. 49
the installation of a GPS on defendant’s car within 10
days. Id. at 402-03. The government installed the GPS
device on the eleventh day. Id. at 403. The government
eventually obtained an indictment and was permitted
to use the data collected while defendant moved about
the city streets. Id. The United States Court of Appeals
for the District of Columbia reversed the conviction because the use of the GPS device violated the fourth
amendment. Id. at 404. On appeal, the United States
Supreme Court concluded that “the Government’s installation of a GPS device on a target’s vehicle, and its
use of that device to monitor the vehicle’s movements,
constitutes a ‘search.’ ” Id. In reaching this conclusion,
the Court stated “[t]he Government physically occupied private property for the purpose of obtaining information. We have no doubt that such a physical
intrusion would have been considered a ‘search’ within
the meaning of the Fourth Amendment when it was
adopted.” Id. at 404-05 (citing Entick v. Carrington
(1765) 95 Eng. Rep. 807).
The Court reafﬁrmed this holing [sic] in Florida v.
Jardines, 569 U.S. 1, 5-7 (2013). In Jardines, the Court
held that having a drug-snifﬁng dog nose around a suspect’s front porch was a search because the police had
“gathered information by physically entering and occupying the [curtilage of the house] to engage in conduct not explicitly or implicitly permitted by the
homeowner.” Id. at 6. Then in Grady v. North Carolina,
575 U.S. ___, 135 S. Ct, 1368 (2015), the Court found
that North Carolina’s program of attaching GPS devices to recidivist sex offenders implicated the fourth

App. 50
amendment. Following on Jones and Jardines, the
Court stated, “it follows that a State also conducts a
search when it attaches a device to a person’s body.” Id.
at ___, 135 S. Ct. at 1370.
Based upon Jones, Jardines, and Grady, we reject
LMP’s claim that the GPS requirement at issue constitutes a search. No search occurred because the City
has not physically trespassed on LMP’s property. The
key issue in the Court’s ﬁnding that a search had occurred in the above cases was the state’s physical occupation of property (Jones, 565 U.S. at 404; Jardines,
569 U.S. at 6) or the state’s physical intrusion on the
subject’s body (Grady, 575 U.S. at ___, 135 S. Ct. at
1371). LMP never alleged the City physically entered
its mobile food truck to place the device, nor does it allege the device is City property. Because there is no
trespass, no search occurred within the context of
Jones.
Normally, our inquiry would not end with the
above. Pursuant to Katz v. United States, a search
may also occur when the government intrudes on an
individual’s “reasonable-expectation-of-privacy.” Jones,
565 U.S. at 409 (citing Katz v. United States, 389 U.S.
347 (1967)). However, LMP makes no argument concerning its “reasonable expectation of privacy” and we
decline to engage in any analysis absent a properly
raised argument by appellant. Ill. S. Ct. R. 341(h)(7)
(eff. Jan. 1, 2016) (points not argued are waived and
shall not be raised in the reply brief, in oral argument,
or on petition for rehearing).

App. 51
This case resembles Grigoleit, 233 Ill. App. 3d 606
(1992). Grigoleit discharged its industrial waste-water
into the sanitary district’s publicly owned water pipes.
Id. at 608. The ordinance under which this was allowed
also required Grigoleit to allow the district access to all
discharge locations. Id. at 609. Grigoleit refused all
such requests for inspection, and the district revoked
Grigoleit’s license to discharge. Id. at 610. The circuit
court reinstated the permit, and the district appealed
to this court. We reversed the circuit court and reinstated the board’s decision to revoke Grigoleit’s license.
Id. at 610-11. In so doing, this court stated, “Grigoleit
is not in this instance subject to a regulatory scheme
purporting to regulate the internal conduct of it [sic]
business activities.” Id. at 611. “Grigoleit instead is subject to regulation which controls the external disposal
of wastewater it has generated onto property in which
it possesses no interest.” Id. at 612. We continued “[i]t
has long been settled that a license in respect of real
property, either oral or written, is a revocable privilege
to do an act or a series of acts upon the land of another
without possessing any estate or interest.” Id.
We concluded that Grigoleit had no “constitutionally protected interest in the sewer connection and
may not accept the privileges afforded by the license
while simultaneously raising the fourth amendment
as a bar to enforcement of the very conditions upon
which extension of the license is predicated.” Id. at
613. As the court succinctly concluded, “[i]f Grigoleit
chooses to withhold consent to inspection (as it did
here), the permit may be revoked and no inspection

App. 52
takes place—there is no entry of Grigoleit’s facility and
there is no search implicating the fourth amendment.”
Id. at 614.
The same logic applied by this court in Grigoleit
applies equally well here. Grigoleit and all other dischargers had no constitutional right to discharge
waste into the district’s water network. Id. at 613. Similarly, LMP and all food trucks have no constitutionally
protected property right in conducting business from
Chicago’s streets or sidewalks. Rhine, 363 Ill. at 625.
Like the conditions surrounding the district’s issuance
of discharge licenses, the GPS requirement at issue is
a condition precedent that LMP and all food trucks
must comply with to obtain a license to sell on the City
streets or sidewalks. Like the ordinance in Grigoleit,
the ordinance at issue here does not regulate the internal conduct of LMP’s business activities. Id. at 611-12
(citing New York v. Burger, 482 U.S. 691, 702 (1987)).
LMP makes no argument that the GPS requirement
affects or regulates the internal operations of its bakery business. In accepting a license to conduct business
from the City street, LMP cannot raise a fourth
amendment challenge to “bar * * * enforcement of the
very conditions upon which extension of the license is
predicated.” Id. at 613.
In view of the above, we afﬁrm the circuit court’s
ﬁnding that the GPS requirement does not constitute
a search within the meaning of the Illinois Constitution or the fourth amendment to the United States
Constitution.

App. 53
CONCLUSION
For the foregoing reasons, both the 200-foot restriction and the GPS requirement are constitutionally
valid. The decision of the circuit court is afﬁrmed.
Afﬁrmed.

App. 54
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT—CHANCERY DIVISION
LMP SERVICES, INC.
PLAINTIFF
V.
CITY OF CHICAGO
DEFENDANT

)
)
)
)
)
)

No. 12 CH 41235
Calendar 13
Judge
Anna Helen Demacopoulos

MEMORANDUM OPINION AND ORDER
(Filed Dec. 5, 2016)
This case concerns the City of Chicago’s regulation
of food trucks. Plaintiff LMP Services, Inc. (“LMP”),
owner of a food truck known as “Courageous Cupcakes”, ﬁled the lawsuit in response to an amended ordinance passed by the Chicago City Council on July 25,
2012. Plaintiff challenges the rule which prohibits food
trucks from parking within 200 feet of an existing restaurant, as well as the requirement that each food
truck maintain a global-positioning-system (GPS) unit
which transmits their location to a third-party vendor.
This matter having come before the Court on crossmotions for summary judgment, the Court having reviewed the motions, memoranda in support thereof,
statements of undisputed facts and exhibits thereto,
and the pleadings, heard arguments of counsel on October 19, 2016, and thereby being fully informed in the
premises, ﬁnds as follows:

App. 55
STATEMENT OF FACTS
On July 25, 2012, the Chicago City Council passed
Ordinance 2012-4489, an amended ordinance regarding mobile food vehicles (food trucks) within the City
of Chicago (the “City”). Ordinance 2012-4489 introduced numerous changes, such as the ability to obtain
a license to sell food that is prepared and served from
a mobile food truck, rather than only prepackaged food.
This change resulted in an increase in the number and
variety of food trucks wishing to do business in the
City of Chicago.
Ordinance 2012-4489 maintained a proximity restriction ﬁrst passed on September 11, 1991 that prohibits parking within 200 feet of the entrance of a
restaurant (the “200-foot rule”). Municipal Code of
Chicago (“MCC”), Sec. 7-38-115(f ). The deﬁnition of
a restaurant includes any “place where food and drink
is prepared and served for the public for consumption
on or off the premises pursuant to a required license.”
Id. Plaintiff alleges that the deﬁnition includes businesses such as 7-Elevens (117 locations in Chicago),
Starbucks (179 locations), and Dunkin’ Donuts (193
locations). The 200-foot rule applies to food trucks
whether they are operating on public or private property (except as to restaurants located on the private
property to which the food truck is invited). MCC, Sec.
7-38-115(k)(1)(iii). Food trucks are also required to
have a GPS device permanently installed on their
vehicle “which sends real-time data to any service
that has a publicly-accessible application programming

App. 56
interface (API)” (“GPS requirement”). MCC, Sec. 7-38115(l).
Ordinance 2012-4489 requires the City to establish “mobile food vehicle stands”—designated spaces
on the public way where mobile-food vehicles may operate without being subjected to the 200-foot proximity
restriction. Ordinance 2012-4489 requires the City to
establish at least ﬁve mobile food vehicle stands “in
each community areas [sic] . . . that has 300 or more
retail foods [sic] establishments.” MCC, Sec. 7-38-117.
Additionally, a minimum ﬁne of $1,000.00 was set for
any violations of sections 7-38-115 and 7-38-117. MCC,
Sec. 7-38-128(d) This amount is quadruple the amount
for certain violations prior to the amended ordinance.
Laura Pekarik is the sole owner and shareholder
of LMP. Ms. Pekarik owns and runs a brick and mortar
bakery called “Courageous Bakery” located in Elmhurst,
Illinois, as well as a food truck called “Cupcakes for
Courage.” Plaintiff ’s food truck travels through the
Chicagoland area serving desserts to customers. Plaintiff complains that due to the 200-foot rule, there are
large portions of Chicago that her food truck cannot
park and customers she may not serve, even if she is a
guest on private property. In the Amended Complaint,
Plaintiff alleges the 200-foot rule and the GPS requirement violate constitutional rights provided in Article I,
Sections 2 and 6 of the Illinois Constitution—Due Process (Count I) and Searches, Seizures, and Privacy
(Count III). Plaintiff ’s equal protection claim (Count
II), also brought under Article I, Section 2, was previously dismissed by the Honorable LeRoy K. Martin Jr.

App. 57
LEGAL STANDARD
Summary judgment is appropriate where the
pleadings, afﬁdavits, depositions, admissions, and exhibits on ﬁle, when viewed in the light most favorable
to the non-moving party, reveal that there is no genuine issue as to any material fact and that the movant
is entitled to judgment as a matter of law. 735 ILCS
5/2-1005(c). “A genuine issue of material fact precluding summary judgment exists where the material facts
are disputed, or, if the material facts are undisputed,
reasonable persons might draw different inferences
from the undisputed facts.” Adames v. Sheahan, 233
Ill.2d 276, 296 (2009) (citing Adams v. Northern Illinois
Gas Co., 211 Ill.2d 32, 43 (2004)). When the parties ﬁle
cross-motions for summary judgment, they concede the
absence of a genuine issue of material fact and invite
the court to decide the questions presented as a matter
of law. Steadfast Ins. Co. v. Caremark Rx Inc., 359 Ill.
App. 3d 749, 755 (1st Dist. 2005). Summary judgment
is “a drastic means of disposing of litigation and, therefore, should be granted only when the right of the moving party is clear and free from doubt.” Adames, 233
Ill.2d at 296.
ANALYSIS
This dispute pits the interests of the traditional
brick-and-mortar restaurant against the young rising
pop star—the food truck. The public interest that the
City is charged with protecting and furthering lies
somewhere in the uncertain middle. The parties have

App. 58
taken numerous depositions in this matter and the
Court has reviewed nearly two thousand pages in supporting exhibits. For the following reasons, the Court
grants the City’s motion for summary judgment and
denies Plaintiff ’s cross-motion for summary judgment.
Count I – 200 Foot Rule (Due Process)
The 200-foot rule provides:
No operator of a mobile food vehicle shall park
or stand such vehicle within 200 feet of any
principal customer entrance to a restaurant
which is located on the street level; provided,
however, the restriction in this subsection
shall not apply between 12:00 a.m. and 2:00
a.m.
MCC, Sec. 7-38-115(f ).
The Court notes that the 200-foot rule is not a new
regulation. As of the ﬁling of this lawsuit in November
2012, the 200-foot rule had been in place with respect
to food trucks for over eleven years.1 Although, a prior
rule containing a 200-foot proximity requirement was
struck down by the Circuit Court in 1986, such provision was held unenforceable due to its vagueness—a
1

Both the 1991 and 2012 ordinances provide, “No operator
of a mobile food vehicle shall park or stand such vehicle within
200 feet of any principal customer entrance to a restaurant which
is located on the street level.” Section 7-38-115(f), as amended in
2012, includes the following additional language, “provided, however, the restriction in this subsection shall not apply between
12:00 a.m. and 2:00 a.m.”

App. 59
challenge not raised against the 2012-4489 Ordinance.2 See Thunderbird v. Catering Co. v. City of Chicago, No. 83 L 52921 (Cook Cty. Cir. Ct. Oct. 15, 1986)
(O’Brien, T). Though the language of the 200-foot rule
has not signiﬁcantly changed since 1991, the marketplace for food trucks in Chicago has broadened both
with a nationwide surge in interest in food trucks, as
well as the expanded opportunities for entrepreneurship given the changes effected by Ordinance 20124489.
In its motion for summary judgment, Plaintiff asserts that the 200-foot rule violates its due process
rights, speciﬁcally the right to pursue a trade or business free from arbitrary and irrational regulation.
Plaintiff argues that proximity restrictions have been
invalidated by numerous courts, including the Illinois
Supreme Court. Moreover, Plaintiff further argues that
the 200-foot rule does not “deﬁnitely and substantially”
advance any legitimate government interest as each of
the stated bases for the rule are either illusory or improper.
In response and by its cross-motion for summary
judgment, the City argues that Plaintiff (not the City)
2

The predecessor ordinance to the one at issue provided in
relevant part, “No operator of (a mobile food dispensing vehicle
shall park or stand such vehicle within 200 feet of . . . a place of
business which deals in like or similar commodities such as are
sold by the mobile unit.” MCC, Sec. 130-4.12(d). The Court struck
Sec. 130-4.12(d) as “vague and unenforceable,” and prohibited the
City from enforcing the ordinance. Thunderbird Catering Co. v.
City of Chicago, No. 83 L 52921 (Cook Cty. Cir. Ct. Oct. 15, 1986).

App. 60
bears the burden to show that the 200-foot rule is unreasonable and has failed to meet that burden. The
City contends that balancing the interests of brickand-mortar restaurants with that of the food trucks is
a legitimate governmental interest. Further, the other
bases for the restriction, including reducing pedestrian
congestion and encouraging food trucks to locate in underserved areas are rationally related to the regulation, as well.
Rational Basis Test
When considering a substantive due process challenge, “a statute is unconstitutional if it impermissibly
restricts a person’s life, liberty or property interest.”
People v. Johnson, 225 Ill.2d 573, 584 (2007). Wellsettled is the constitutional principle that every citizen
has the right to pursue a trade, occupation, business
or profession. Coldwell Banker Residential Real Estate
Services, Inc. v. Clayton, 105 Ill.2d 389, 397 (1985).
“This inalienable right constitutes both a property and
liberty interest entitled to the protection of the law as
guaranteed by the due process clauses of the Illinois
and Federal constitutions.” Id. Ordinance 2012-4489,
as with other ordinances regulating mobile food vendors
or peddlers addressed by previous courts, “concerns regulation in the socio-economic sphere, and neither encroaches upon a fundamental right nor draws lines
which create an inherently suspect classiﬁcation.” See
Triple A. Servs. v. Rice, 131 Ill.2d 217, 226 (1989). Accordingly, the rational basis test will apply. Napleton v.
Vill. of Hinsdale, 229 Ill.2d 296, 307 (2008).

App. 61
Under the rational-basis test, the Court’s inquiry
is twofold: (1) the Court “must determine whether
there is a legitimate state interest behind the legislation” and, (2) “if so, whether there is a reasonable relationship between that interest and the means the
legislature has chosen to pursue it.” Johnson, 225 Ill.2d
at 584. “One who challenges an ordinance as failing
this test of minimum rationality bears the burden of
proving ‘by clear and afﬁrmative evidence that the ordinance constitutes arbitrary, capricious and unreasonable municipal action; that there is no permissible
interpretation which justiﬁes its adoption, or that it
will not promote the safety and general welfare of the
public.’ ” Triple A Servs., 131 Ill.2d at 225-226 (quoting
City of Decatur v. Chasteen, 19 Ill.2d 204, 210 (1960)).
“If there is any conceivable set of facts to show a rational basis for the statute, it will be upheld.” Johnson,
225 Ill.2d at 585. “[T]he law need not be in every respect logically consistent with its aims to be constitutional. It is enough that there is an evil at hand for
correction, and that it might be thought that the particular legislative measure was a rational way to correct it.” Harris v. Manor Healthcare Corp., 111 Ill.2d
350, 368-369 (1986) (quoting Williamson v. Lee Optical
of Oklahoma, Inc., 348 U.S. 483, 487-88, 99 (1955)). The
City has offered three rational bases for the 200-foot
rule: “(1) it fosters restaurants – which provide important economic, cultural, and neighborhood beneﬁts
to the City- while at the same time allowing food
trucks to prosper; (2) it helps spread retail food options to blocks or entire communities of the City that
lack enough restaurants, and (3) it manages sidewalk

App. 62
congestion caused by lines of food truck customers.”
(Def.’s. Mem. in Supp. Summ. J. 1). As noted above, it is
Plaintiff ’s burden to show that the regulation is unreasonable, arbitrary or capricious rather than the City’s
burden to prove that it is reasonable. Triple A Servs.,
131 Ill.2d at 226. As discussed below, the Court ﬁnds
that at least two rational bases exist for the 200-foot
rule, namely the balancing of interests and reducing
pedestrian congestion.
(1) Balancing of Interests
The City argues that Ordinance 2012-4489 serves
the dual purpose of balancing the needs of both restaurants and food trucks. Plaintiff contends that the
ordinance is intended to protect brick-and-mortar restaurants from competition, which is not a legitimate
government purpose. Following review of Illinois law
and the supporting exhibits to the cross-motions for
summary judgment, the Court agrees that food trucks
may be regulated in a manner that balances the needs
of the community, which includes the interests of the
brick-and-mortar restaurants.
Plaintiff relies upon Chicago Title & Trust Co. v.
Village of Lombard, 19 Ill.2d 98 (1960) and cases from
foreign jurisdictions in support of its contention that
Illinois courts do not favor barriers to competition such
as proximity limitations. In Chicago Title, the Illinois
Supreme Court struck down an ordinance barring the
construction of a gas station within 650 feet of another
existing gas station. Noting that the ordinance permitted

App. 63
existing service stations situated within 650 feet of
each other to continue, the court found the proximity
restriction arbitrary and unreasonable. The Court further concluded that the ordinance “exempts from its
requirements businesses already established, and, in
operation and effect, tends to promote monopoly.” Id. at
107.
Chicago Title is readily distinguishable from the
facts of the instant matter. In particular, the businesses
to be separated by the Village of Lombard ordinance—
gas stations—were the exact same type of business
and in direct competition with one another. Here, the
City has designed its regulation to separate two different types of business with different business needs.
Plaintiff ’s expert, Dr. Henry Butler, Dean of George
Mason University School of Law with a Ph.D. in economics, testiﬁed that the risk taken in opening a new
restaurant “is a lot higher for the brick and mortar”
than for a food truck. (City’s MSJ, Ex. 7, Butler Dep. at
74:1-22). As to costs, according to Streets of Dreams, a
report published by the Institute for Justice (“IFJ),
“[s]treet vending allows entrepreneurs to establish
their own businesses at a fraction of the cost of other
potential ventures.” (City’s MSJ, Ex. 8 at IJ0169). The
IFJ report illustrates this point with the example of
Stephan Boillon, a chef in Washington, D.C., who lost
his job in 2008. Mr. Bouillon [sic] wanted to start his
own business, speciﬁcally a restaurant serving only
cold sandwiches. Id. at IJ0170. This simple concept obviated the need to buy expensive cooking equipment.
Id. However, setting up a brick and mortar restaurant

App. 64
would have cost $750,000, “not including operating
costs such as rent, utilities and insurance,” whereas
the mobile food truck he “put on the road cost only
$50,000 to get up and running.” Id. Were the City to
bar new brick and mortar restaurants from opening
within a certain distance of existing brick and mortar
restaurants or food trucks from other food trucks, Chicago Title would be on point.
Moreover, Ordinance 2012-4498 does not tend to
promote the monopoly criticized in Chicago Title as the
200-foot rule does not come close to excluding entire
areas of Chicago, including the Loop. Plaintiff ’s principal, Ms. Pekarik, testiﬁed that although there are areas in the City from which she may not sell, she has
been able to ﬁnd appropriate places to vend in the Loop
and her business is thriving such that she opened a
brick-and-mortar bakery, purchased a second food
truck, and now has 15 employees. (City’s MSJ, Ex. 9,
Pekarik Dep. at 20:1-3; 59:217; 74-79). Additionally, the
amended ordinance speciﬁcally allows for more food
trucks in specially designated areas known as mobile
food vehicle stands, which are exempt from the 200foot rule. MCC, Sec. 7-38-117(f ).
About 19 years after Chicago Title, the Illinois Supreme Court addressed a mobile food vending ordinance much more restrictive than the ordinance before
this Court today. In Triple A Services v. Rice, 131 Ill.2d
217 (1989), the Court upheld a complete ban of mobile
food vending companies in the Medical District, challenged on both due process and equal protection grounds.
The stated purpose of the ordinance was to “enhance[ ]

App. 65
the professional appearance and ambience of the District. . . . [and] serve[ ] to protect against a decline in
property values and to attract professional medical
personnel and medical clients to the District.” Id. at
228. Further, the ordinance prevented pedestrian and
vehicular congestion, and acted to prevent sanitation
problems arising from discarded food wrappers. Id.
The Court found all of these purposes to be “legitimate
governmental objectives.” Id. at 228. While the appellate court had concluded that total ban of mobile food
vendors from the Medical District was overly broad as
a portion of the area designated in the ordinance was
used for nonmedical purposes, the Illinois Supreme
Court disagreed. The Court held that it did not ﬁnd
“that the means adopted by the Chicago city council to
further the aforementioned objectives is so grossly
overly broad as to render the ordinance arbitrary, capricious and unreasonable.” Id. Noting that “[t]he ﬁt
between the means and the end to be achieved need
not be perfect” and “rational distinctions may be made
with substantially less than mathematical exactitude”
the Court upheld the ordinance. Id. at 228-229.
In reaching its decision in Triple A Services, the
Illinois Supreme Court relied upon City of New Orleans v. Dukes, 427 U.S. [sic] (1976), in which the Supreme Court upheld an ordinance which prohibited
vendors from selling foodstuffs from pushcarts in the
French Quarter of the City of New Orleans. While the
ordinance grandfathered vendors who had continuously operated within the French Quarter for eight
years prior to enactment of the ordinance, the Court

App. 66
rejected petitioner’s equal protection argument, holding that the ordinance rationally furthered the purpose of preserving “ ‘the appearance and custom valued
by the Quarter’s residents and attractive to tourists.”
The Supreme Court found that the legitimacy of that
objective was “obvious.” 427 U.S. at 304.
While the cases from foreign jurisdictions of New
York, New Jersey, and California cited by Plaintiff, do
tend to show a strong disapproval of proximity limitations or any geographic restraints on mobile food vendors as unfair attempts to regulate competition, they
stand in contrast with Illinois law.3 Other Illinois cases
3

In People v. Ala Carte Catering Co., a California appellate
court struck down a Los Angeles ordinance that barred catering
trucks from selling within 100 feet of a restaurant. 98 Cal. App.
3d Supp. 1, 9 (Cal. App. Dep’t Super. Ct. 1979). The basis for the
ordinance was the potential “hazard to trafﬁc” and “nuisance to
pedestrians” created by the “unregulated stopping of vehicles for
the sale of foods and beverages.” Id. In striking down the ordinance, the court held it was a “naked restraint of trade,” that was
“arbitrarily made for the mere purpose of classiﬁcation.” Id. at 13.
See also Duchein v. Lindsay, 345 N.Y.S.2d 53, 55-57 (N.Y. App.
Div. 1973) (invalidating law prohibiting vending within 100 feet
of businesses selling the same goods); Mister Softee v. Mayor of
Hoboken, 186 A.2d 513, 519-20 (N.J. Super. Ct. Law Div. 1962)
(invalidating law preventing vending within 200 feet of business
selling similar merchandise). Although the preceding cases tend
to show the aversion of courts in certain jurisdictions to any proximity limitations, this Court is bound by Illinois precedent which
has expressly permitted proximity restrictions and even the total
ban of food trucks and the like. See e.g. Triple A Servs. v. Rice, 131
Ill. 2d 217 (1989); Good Humor Corp. v. Mundelein, 33 Ill. 2d 252
(1965) (upholding ordinance banning ice cream trucks from village streets); Chicago v. Rhine, 363 Ill. 619 (1936) (upholding ban
of the sale of all goods on the street except newspapers).

App. 67
cited by Plaintiff in support of its theory that government regulation that affect competition in the marketplace is unconstitutional are unavailing as they
concern speciﬁc zoning decisions or licensure. Finally,
in considering the particular needs and characteristics
of the City of Chicago—a city which is noted for its culture, uniquely diverse neighborhoods, and even popularity with culinary tourists, the Court ﬁnds that the
balancing of interests between food trucks, brick-andmortar restaurants, and other needs of the city is a rational basis for the 200-foot rule.
(2) Spreading Retail Food Options to Underserved Areas
The City contends that the 200-foot rule will encourage food trucks to locate to areas which are presently underserved by restaurants. Plaintiff argues
that this reason is unfounded under basic principles of
economics. The Court ﬁnds that Plaintiff has met its
burden in showing that the 200-foot rule does not encourage food trucks to locate in areas lacking restaurants. Dr. Butler concluded that “[e]conomic theory
predicts that the 200-foot rule cannot and will not achieve
the City’s stated goal of encouraging food trucks to operate in community areas lacking sufﬁcient retail food
options.” (Plt. MSJ, Butler Aff. ¶15). This is because
food truck operators are entrepreneurs who wish to
maximize their proﬁts and will go where the demand
is the highest. Id. ¶14. Food trucks will focus on dense
areas where consumers have relatively high levels of
disposable income. Id. ¶17. Because “underserved”

App. 68
areas generally lack these features, economic theory
predicts little food-truck activity in such areas. Id. ¶21.
Expert analysis also showed no evidence that food
trucks were visiting the underserved areas since the
passage of the amended ordinance. Professor Butler
analyzed over 48,000 tweets of Chicago food trucks
from November 26, 2013 to November 26, 2014, and
concluded that food trucks do not often operate in the
areas identiﬁed as underserved by the City such as
Auburn Gresham, Beverly, Engelwood, Humbolt Park
Morgan Park, and South Shore. Id. ¶¶39 [sic]. For
these reason [sic], the Court ﬁnds the 200-foot [sic] is
not rationally related to the purpose of spreading retail
food options to underserved areas of the City.
(3) Managing Sidewalk Congestion
Lastly, the City argues that the 200-foot rule is rationally related to the City’s interest “reducing congestion and delays on sidewalks because it creates a buffer
between food truck customer lines and the congestion
that can arise outside restaurants.” (City’s MSJ p. 11).
Plaintiff responds that the 200-foot rule as between
restaurants and food trucks is arbitrary because other
businesses can be sources of pedestrian congestion such
as theatres. Further, the exemption for food trucks
serving construction workers or operating at food
truck stands undermines the City’s position because
food truck stands and construction also may create pedestrian congestion. Finally, Plaintiff ’s expert, Renia
Ehrenfeucht, Professor of Community and Regional
Planning at the University of New Mexico, avers that

App. 69
in her observational study of seven food truck locations, four of which were within 200 feet of a restaurant’s principal entrance and the rest food truck
stands, no difference in congestion was observed. (Plt.’s
MSJ, Ehrenfeucht Aff., ¶¶27-28). Moreover, no one
complained of the lines caused by food trucks.
Even if all of Plaintiff ’s arguments are true, this
does not invalidate the 200-foot rule as a rational basis
exists for reducing sidewalk congestion. Photos and
notes collected through Professor Ehrenfeucht’s study,
as well [sic] by photos retrieved from Twitter, clearly
show that food trucks result in signiﬁcant sidewalk
congestion. Moreover, restaurants often have sidewalk
cafes during the warmer months, which further reduce
available sidewalk space and cause congestion. (Plt.’s
MSJ, Ex. 16, Hamilton Dep. at 36:8-11). It is well-settled that “[a] local ordinance aimed at remedying a
problem need not entirely eliminate the problem.” Vaden v. Maywood, 809 F.2d 361, 365 (7th Cir. 1987). Rather, “reform may take one step at a time, addressing
itself to the phase of the problem which seems most
acute to the legislative mind.” Id. (quoting Williamson
v. Lee Optical of Oklahoma, Inc., 348 U.S. 483, 489
(1955).
The Illinois Supreme Court in Triple A Services relied upon Vaden v. Village of Maywood, 809 F.2d 361
(7th Cir. 1987), which upheld an ordinance banning the
operation of mobile food vending businesses in Maywood from 8 a.m. to 4 p.m. on any day between August
25 and June 30 when a public elementary or secondary school was in operation. Plaintiff Vaden, who sold

App. 70
snacks primarily to school children, challenged the ordinance on due process, equal protection, and other
grounds. Noting that “[i]n determining the constitutionality of the ordinance, [the Court] cannot consider
whether the Village Board acted wisely in regulating
the business of its street vendors or whether it could
have accomplished its goals more effectively; [the Court]
consider[s] only whether the ordinance is wholly arbitrary.” Id. at 364-365. Finding that the restriction was
rationally related to the legitimate goal of preventing
children from being delayed and distracted while traveling to and from school, the Seventh Circuit upheld
the ordinance.
Though other businesses are sources of pedestrian
congestion, lines at food trucks and traditional restaurants are more likely to occur at the same time than,
perhaps, another business such as a theatre at lunch
time. A “legislature need not run the risk of losing
an entire remedial scheme simply because it failed,
through inadvertence or otherwise, to cover every evil
that might conceivably have been attacked. In re Adopt
[sic] O.J.M., 293 Ill. App. 3d 49, 64 (1st Dist. 1997)
(quoting McDonald v. Board of Election Commissioners, 394 U.S. 802, 809 (1969) (internal quotes, citations
omitted). In this case, although the 200-foot rule does
not solve all sources of pedestrian congestion, the evidence shows that food trucks are a signiﬁcant source
of congestion, as are restaurants. Accordingly, the
Court ﬁnds that the 200-foot rule is rationally related
to the City’s legitimate goal to reducing sidewalk congestion.

App. 71
Count III – GPS Requirement (Unreasonable
Search/Violation of Privacy)
The GPS requirement is a combination of MCC
Section 7-38-115(1), created by Ordinance 2012-4489,
and the regulations enacted by the City’s Department
of Public Health (“DPH”) on December 21, 2012. The
ordinance provides:
Each mobile food vehicle shall be equipped
with a permanently installed functioning
global-positioning-system (GPS) device which
sends real-time data to any service that has a
publicly-accessible application programming
interface (API). For purposes of enforcing this
chapter, a rebuttable presumption shall be
created that a mobile food vehicle is parked at
places and times as shown in the data tracked
from the vehicle’s GPS device.
MCC, Sec. 7-38-115(1).
The DPH regulations state that the GPS need only
transmit location data “while the vehicle is vending
food or otherwise open for business to the public, and
when the vehicle is being serviced at a commissary
. . . ” (Plt.’s MSJ, Ex. K, CITY000703). When required
to function, the GPS device must transmit the vehicle’s
location at least once every ﬁve minutes. Id. City personnel may request location information from a GPS
Service Provider if the information is sought to investigate a food-related threat to public health, “in connection with establishing compliance with Chapter
7-38 of the Municipal Code of Chicago or the regulations promogulated thereunder” or “for purposes of

App. 72
emergency preparation or response.” Id. The GPS Service Provider must maintain at least six months of historical location data for a mobile food vehicle. Id.
Plaintiff challenges the GPS requirement as an
unreasonable search, and that the ordinance and regulations do not serve as an adequate substitute for a
warrant. Plaintiff also complains that the data is not
collected by the City, but rather by a third party which
must hold six months of data open to the world. The
City responds that GPS requirement is not a search by
the government, and therefore, no warrant is required.
Moreover, the City has never obtained Plaintiff ’s location data from the GPS Service provider, other than
during the pendency of this lawsuit pursuant to subpoena issued by the City’s counsel. Reviewing the data,
however, would not be a search because LMP has
no reasonable expectation of privacy when operating
its food truck. Even if the requirement constitutes a
search, it would be lawful as a reasonable search because the data is limited and serves important City interests. Finally, the City argues that there is no
meaningful difference between what it transmitted by
the GPS unit and what is routinely communicated by
the food truck themselves via social [sic].
The GPS Requirement Does Not Constitute a Search
or Seizure
As a preliminary matter, LMP has not been subject to a search or seizure, illegal or not, as the City never
requested LMP’s location data outside the pendency of

App. 73
this lawsuit. Thus, LMP lacks standing to raise a challenge to the GPS requirement because it was never
searched. Even had the City accessed LMP’s data via
the third-party GPS service provider, Plaintiff ’s constitutional claims fail as the GPS requirement does not
constitute a search.
Plaintiff cites United States v, Jones, 565 U.S. 400
(2012), in support of its contention that the GPS requirement constitutes a search. In Jones, the defendant came under suspicion of trafﬁcking in narcotics. Id.
at 402. The government obtained a search warrant in
federal court which authorized the installation of a
GPS unit on the vehicle registered to Jones’ wife (but
of which Jones was the exclusive driver), however the
warrant expired before the GPS unit was installed. Id.
at 403. Over the next 28 days, the government collected
data using the device and indicted Jones and several
alleged co-conspirators with conspiracy to distribute
ﬁve kilograms or more of cocaine. Id. Jones ﬁled a motion to suppress the evidence obtained by the GPS unit
which the District Court granted only in part, suppressing the data obtained while the vehicle was
parked at Jones’ residence. Id. Jones was then convicted with the data from the GPS unit having led
to the alleged co-conspirators’ house that contained
$850,000 in cash, 97 kilograms of cocaine, and 1 kilogram of cocaine base. Id. at 403-404. Upon review, the
Supreme Court noted that the “Government physically
occupied private property for the purpose of obtaining
information”, and found that the installation of a GPS
unit was an unconstitutional search. Id. at 404. The

App. 74
Court further held that it need not reach the “reasonable expectation of privacy” analysis ﬁrst articulated
in Justice Harlan’s concurrence in Katz v. United States,
389 U.S. 347 (1967) due to such “physical intrusion” by
the Government. Id. at 407. Our appellate court relied
upon Jones in a similar case where special agents
working for the Drug Enforcement Agency installed a
GPS tracking device on a suspect’s car without judicial
authorization, and then monitored the suspect for a
month. People v. Bravo, 2015 IL App (1st) 130145.
Jones and Bravo are distinguishable most notably
because the government did not surreptitiously place
the GPS unit on Plaintiff ’s food truck. There was no
physical trespass to LMP’s food truck for the purpose
of installing the GPS unit. Rather, the GPS unit is a
requirement of operations in the City, that is made
obvious to Plaintiff by both the Municipal Code of Chicago and DPH regulations. As such, the GPS requirement does not constitute a search.
Even if the GPS Requirement Were Deemed a Search,
It Would Be Reasonable.
Warrantless inspections of closely regulated businesses (such as food service) must meet three criteria
as set forth by the United States Supreme Court in
New York v. Burger, 482 U.S. 691 (1987). First, there
must be a substantial government interest that informs the regulatory scheme pursuant to which the inspection is made. Burger, 482 U.S. at 702. Second, the
warrantless inspections must be necessary to further

App. 75
the regulatory scheme. Id. Finally, the statute’s inspection program, in terms of the certainty and regularity
of its application, must provide a constitutionally
adequate substitute for a warrant. Id. at 703. The
Court ﬁnds that the GPS requirement as codiﬁed by
ordinance and DPH regulations satisﬁes the Burger
test.
The parties do not dispute that the City has a
substantial interest in ensuring food safety. Accordingly, as the DPH regulations more than adequately
make clear that public health is a substantial basis for
the regulation, the ﬁrst requirement of the Burger test
is satisﬁed. The regulations provide that City personnel will not require location information from a GPS
service provider pertaining to a mobile food vehicle
unless the information is sought (1) to investigate a
complaint of unsanitary or unsafe conditions, (2) to investigate a food-related threat to public health, (3) in
connection with establishing compliance with Chapter 7-38 of the MCC (which also includes numerous
health and safety requirements), or (4) for purposes of
emergency preparation or response. (Plt.’s MSJ, Ex. K,
CITY0000703). Second, the warrantless inspections
are necessary to further the regulatory scheme. The
data required to be maintained enables the City to
learn a food truck’s current and prior locations for purposes of health inspection or notiﬁcation of the public.
That the City could obtain this information by consulting the food truck’s Twitter feed or telephoning the
truck is of no matter. Moreover, Ms. Pekarik testiﬁed
that there is no requirement as to when or how soon

App. 76
after arrival her employees will post the food truck’s
location on Twitter or Facebook and there have been
times when the driver neglected to post on social media. (City’s MSJ, Ex. 9, Pekarik Dep. at 24:23-26:24).
As brick-and-mortar restaurants are subject to unannounced health inspections, there is no colorable
reason that food trucks should not be subject to the
same if the City deems it necessary. Lastly, the third
requirement that the GPS requirement must satisfy
the basic requirement of a warrant is satisﬁed as both
the ordinance and the DPH regulations clearly inform
a food truck licensee what data is collected and when
it may be requested by the City. Accordingly, because
all elements of the Burger test are satisﬁed, even if the
GPS requirement constitutes a “search,” it would pass
constitutional muster.
LMP Has No Reasonable Expectation of Privacy
Plaintiff also contends that the GPS requirement
violates its reasonable expectation of privacy. This contention borders on the absurd. That a business, serving
food to the public should be permitted to conceal its location from governmental scrutiny, including the public health department, simply because it is on wheels
is incomprehensible. The GPS requirement expressly
states that the GPS unit only need transmit the food
truck’s location when the food truck is vending food,
otherwise open for business, or being serviced at a commissary. (Plt.’s MSJ, Ex. K, CITY0000703). Plaintiff
argues that occasionally keeping the location of the
food truck secret may prevent competitor food trucks

App. 77
from coming to the same parking spot and siphoning
off customers. Another reason offered is that the GPS
requirement will compromise an employee’s safety
from unwanted attention from members of the public
or acquaintances outside the workplace. Neither reason serves as a basis for a reasonable expectation of
privacy when operating a food business. Finally, it is
well-settled that there is no reasonable expectation of
privacy in a vehicle’s location when operating in public.
United States v. Knotts, 460 U.S. 276, 281 (1983) (“A car
has little capacity for escaping public scrutiny. It travels public thoroughfares where both its occupants and
its contents are in plain view.”).
Because LMP has no reasonable expectation of
privacy in its location when its food truck is open for
business and serving food to the public, there is no constitutional right ceded in exchange for a food truck license. Thus, the Court need not reach the issue of
whether the GPS requirement is a permissible condition of licensure. Planned Parenthood of Ind., Inc. v.
Comm’r of the Ind. State Dep’t of Health, 699 F.3d 962,
986 (7th Cir. 2012) (“The ﬁrst step in any unconstitutional-conditions claim is to identify the nature and
scope of the constitutional right arguably imperiled by
the denial of a public beneﬁt.”)
CONCLUSION
Because the Court ﬁnds the 200-foot rule is rationally related to at least two legitimate government
purposes, namely balancing of interests between food

App. 78
trucks and brick-and-mortar restaurants and reducing pedestrian congestion, it ﬁnds the 200-foot rule
does not violate Plaintiff ’s due process rights. Summary judgment as to Count I is entered in favor of the
City.
The Court further ﬁnds that the GPS requirement
does not constitute a “search” by the government and
no seizure has occurred. That the requirement only applies when the food truck is open for business or being
serviced at a commissary is key. There is no reasonable
expectation of privacy when the food truck is open for
business and serving food to the public. Moreover, as a
food truck is a vehicle, there is no reasonable expectation of privacy on the public ways at any time. Finally,
even were Plaintiff to have a constitutional right to privacy when open for business and the GPS requirement
to constitute a search, such a warrantless search is
likely to pass constitutional muster because the ordinance and regulations adequately inform the licensee
when and why its location data might be retrieved. For
these reasons, summary judgment as to Count III is
entered in favor of the City.
WHEREFORE, IT IS HEREBY ORDERED:
1) The City of Chicago’s Motion for Summary
Judgment is granted.

App. 79
2) Plaintiff ’s Motion for Summary Judgment is
denied.
ENTERED:
Judge
Anna Helen Demacopoulos
DEC - 5 2016
Circuit Court – 2002
Judge Anna H. Demacopoulos

App. 80
No. 123123
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

IN THE
SUPREME COURT OF ILLINOIS
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

LMP SERVICES, INC.,
Plaintiff-Appellant,
v.
CITY OF CHICAGO,
Defendant-Appellee.
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

On Appeal From The Appellate
Court of Illinois, First District,
No. 1-16-3390,
There Heard On Appeal from the
Circuit Court of Cook County, Illinois,
County Department, Chancery Division
No. 12 CH 41235
The Honorable Anna H. Demacopoulos,
Judge Presiding

App. 81
-----------------------------------------------------------------------

SUPPLEMENTAL AUTHORITY
-----------------------------------------------------------------------

EDWARD N. SISKEL
Corporation Counsel
of the City of Chicago
30 N. LaSalle St., Suite 800
Chicago, Illinois 60602
(312) 744-8519
suzanne.loose@
cityofchicago.org
appeals@cityofchicago.org
BENNA RUTH SOLOMON
Deputy Corporation
Counsel
MYRIAM ZRECZNY KASPER
Chief Assistant
E-FILED
Corporation Counsel
1/16/2019 10:38 AM
SUZANNE M. LOOSE
Carolyn Taft Grosboll
Senior Counsel
SUPREME COURT
Of Counsel
CLERK
CITY OF CHICAGO
RULES

✸✸✸✸
Mobile Food Vendors and Shared
Kitchens
Last Updated: January 1, 2019
Mayor Rahm Emanuel
Commissioner Julie Morita, M.D.

App. 82
BY AUTHORITY VESTED IN THE COMMISSIONER
OF THE DEPARTMENT OF PUBLIC HEALTH PURSUANT TO SECTION 2-112-160(a)(7) OF THE MUNICIPAL CODE OF CHICAGO, THE FOLLOWING
MOBILE FOOD VENDORS AND SHARED KITCHENS RULES ARE ADOPTED HEREIN.
By Order of the Commissioner:
Signed: Julie Morita

Date: December 12, 2018

Commissioner Julie Morita, M.D.
Published: December 12, 2018
Effective: January 1, 2019
(Rules on “Mobile Food Vehicles,” promulgated on December 4, 2014, are repealed and replaced by the rules
contained herein as of January 1, 2019.)
Part I.
Rule 1.

General

Definitions.

(A) For purposes of these rules, the terms “commissary,” “mobile frozen desserts vendor,” “mobile food
dispenser,” “mobile food preparer,” “mobile food vehicle,” “mobile food vendor,” “mobile food truck,”
and “mobile prepared food vendor” shall have the
meanings ascribed to these terms in Section 4-8010 of the Municipal Code of Chicago.
(B) For purposes of these rules, the following terms
are deﬁned as follows:

App. 83
(1) “Certiﬁed combustible gas detector” refers to
UL-Classiﬁed and Mine Safety and Health
Administration (MHSA)-certiﬁcation.
(2) “Chassis-mounted tank” refers to a propane or
natural gas tank permanently installed as a
part of the body of a mobile food vehicle.
(3) “Department” means the Chicago Department of Public Health.
(4) “Equipment”
a.

Means an article that is used in the operation of a FOOD ESTABLISHMENT such
as a freezer, grinder, hood, ice maker,
MEAT block, mixer, oven, reach-in refrigerator, scale, sink, slicer, stove, table, TEMPERATURE MEASURING DEVICE for
ambient air, VENDING MACHINE, or
WAREWASHING machine.

b.

Does not include apparatuses used for
handling or storing large quantities of
PACKAGED FOODS that are received
from a supplier in a cased or overwrapped
lot, such as hand trucks, forklifts, dollies,
pallets, racks, and skids.

c.

Also does not include KITCHENWARE or
TABLEWARE that is multiuse, SINGLE
SERVICE, or SINGLE USE; gloves used
in contact with FOOD; temperature sensing probes of FOOD TEMPERATURE
MEASURING DEVICES; probe type price
or identiﬁcation tags used in contact with
FOOD; and pitchers, pots, and urns that

App. 84
are not connected to the public water supply.
(5) “Food Code Rules” means the Chicago Food
Code Rules promulgated by the Commissioner of Health, which were ﬁrst published
on March 23, 2018 and which became effective
on July 1, 2018, as amended from time to time
by the Commissioner of Health.
(6) “HVAC professional” refers to a heating, ventilation and air conditioning professional with
current license as granted by the Illinois Department of Financial and Professional Regulation.
(7) “ILCS” refers to the Illinois Compiled Statues
[sic] as published by the State of Illinois.
(8) “Natural gas” refers to compressed natural
gas used as a fuel source as deﬁned by NFPA
52.
(9) “NFPA” refers to the National Fire Protection
Association.
(10) “NFPA 10” refers to National Fire Protection
Association Code 10: Standard for Portable
Fire Extinguishers.
(11) “NFPA 52” refers to National Fire Protection
Association Code 52: Vehicular Gaseous Fuel
Systems Code.
(12) “NFPA 58” refers to National Fire Protection
Association Code 58: Liqueﬁed Petroleum Gas
Code.

App. 85
(13) “NFPA 70” refers to National Fire Protection
Association Code 70: National Electrical Code.
(14) “NFPA 96” refers to National Fire Protection
Association Code 96: Standard for Ventilation
Control and Fire Protection of Commercial
Cooking.
(15) “NFPA 1192” refers to National Fire Protection Association Code 1192: Standard on Recreational Vehicles.
(16) “OSHA” refers to the U.S. Occupational Health
and Safety Administration.
(17) “Propane” refers to liqueﬁed petroleum gas.
(18) “Publicly-accessible API” means an application programming interface that is technically
capable of allowing access by the public. The
term does not mean an application programming interface to which the service provider
must allow such access to the public.
(19) “Second-stage manufacturer” refers to a person or business that modiﬁes a vehicle after
ﬁnal manufacturer construction—common
terms for a second-stage manufacturer include, but are not limited to “customizer” and
“up-ﬁtter.”

App. 86
Part II. Mobile Food Vendors
*

*

*

Rule 8. Global Positioning System (GPS) requirements.
(A) All mobile food vehicles must be equipped with an
operational Global Positioning System (GPS) device. The device must meet the requirements set
forth in Section 7-38-115 of the Municipal Code of
the City of Chicago, as well as the following:
(1) The device must be permanently installed in,
or on, the vehicle.
(2) The device must be an “active,’’ not “passive,”
device that sends real-time location data to a
GPS service provider; the device is not required to send location data directly to the
City.
(3) The device must be accurate no less than 95%
of the time.
(4) The device must function while the vehicle is
vending food or otherwise open for business to
the public, and when the vehicle is being serviced at a commissary as required by Section
7-38-138 of the Municipal Code of the City of
Chicago or these regulations. The device must
function during these times regardless of
whether the engine is on or off.
(5) When the GPS device is required to function,
the device will transmit GPS coordinates to
the GPS service provider no less frequently
than once every ﬁve (5) minutes.

App. 87
(B) City personnel will not request location information from a GPS service provider pertaining to
a mobile food vehicle unless:
(1) The information is sought to investigate a
complaint of unsanitary or unsafe conditions,
practices, or food or other products at the vehicle;
(2) The information is sought to investigate a
food-related threat to public health;
(3) The information is sought in connection with
establishing compliance with Chapter 7-38 of
the Municipal Code of Chicago or the regulations promulgated thereunder;
(4) The information is sought for purposes of
emergency preparation or response;
(5) The City has obtained a warrant or other
court authorization to obtain the information;
or
(6) The City has received permission from the licensee to obtain the information.
(C) The GPS service provider must maintain at least
six (6) months of historical location information
and be able to provide the following:
(1) When requested pursuant to Rule (8.B.), reports of each transmitted position including
arrival dates, times, addresses, and duration
of each stop, in a downloadable format (i.e.
PDF, CVS [sic] or Excel). If the request is to
provide the current location of a vehicle, the
GPS service provider must respond

App. 88
immediately with the most recent location information for the vehicle.
(2) Reports that provide anonymous, aggregate
information regarding mobile food vehicle operations within the City, and do not identify
speciﬁc mobile food vehicles.
(3) A publicly-accessible API. The provider is free
to deny access by the public.
(D) If the City establishes a website for displaying the
real-time location of mobile food vehicles, for purposes of marketing and promotional efforts, the licensee may choose to provide the appropriate
access information to the API of its GPS to enable
the posting of the vehicle’s location on such website. The licensee is not required to provide such
information or otherwise allow the City to display
the vehicle’s location.
(E) The following will serve as evidence that the GPS
requirements have been met:
(1) Proof of GPS installation.
(2) Proof from a GPS tracking device service provider the operator is in compliance with the
requirements as stated in this Rule.

